<html>
<title> - IRAN: REALITY, OPTIONS AND CONSEQUENCES, PART 2-NEGOTIATING WITH THE IRANIANS: MISSED OPPORTUNITIES AND PATHS FORWARD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






 IRAN: REALITY, OPTIONS AND CONSEQUENCES, PART 2--NEGOTIATING WITH THE 
            IRANIANS: MISSED OPPORTUNITIES AND PATHS FORWARD

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2007

                               __________

                           Serial No. 110-174

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 7, 2007.................................     1
Statement of:
    Dobbins, Ambassador James, director, International Security 
      and Defense Policy Center, Rand Corp.; Hillary Mann 
      Leverett, principal and CEO, Strategic Energy and Global 
      Analysis, LLC; Flynt Leverett, senior fellow, director, 
      Geopolitics of Energy Initiative, New America Foundation; 
      Lawrence J. Haas, vice president, Committee on the Present 
      Danger; and Suzanne Maloney, senior fellow, the Saban 
      Center for Middle East Policy, Brookings Institution.......     6
        Dobbins, Ambassador James................................     6
        Haas, Lawrence J.........................................    43
        Leverett, Flynt..........................................    32
        Leverett, Hillary Mann...................................    19
        Maloney, Suzanne.........................................    54
Letters, statements, etc., submitted for the record by:
    Dobbins, Ambassador James, director, International Security 
      and Defense Policy Center, Rand Corp., prepared statement 
      of.........................................................     9
    Haas, Lawrence J., vice president, Committee on the Present 
      Danger, prepared statement of..............................    46
    Leverett, Flynt, senior fellow, director, Geopolitics of 
      Energy Initiative, New America Foundation, prepared 
      statement of...............................................    35
    Leverett, Hillary Mann, principal and CEO, Strategic Energy 
      and Global Analysis, LLC, prepared statement of............    23
    Maloney, Suzanne, senior fellow, the Saban Center for Middle 
      East Policy, Brookings Institution, prepared statement of..    58
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3

 
 IRAN: REALITY, OPTIONS AND CONSEQUENCES, PART 2-NEGOTIATING WITH THE 
            IRANIANS: MISSED OPPORTUNITIES AND PATHS FORWARD

                              ----------                              


                      WEDNESDAY, NOVEMBER 7, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Yarmuth, Welch, 
Shays, and Platts.
    Also present: Representatives Moran of Virginia and 
McDermott.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; Davis Hake, clerk; Dan 
Hamilton, fellow; Janice Spector and Christopher Bright, 
minority professional staff members; Todd Greenwood, minority 
legislative assistant; Nick Palarino, minority senior 
investigator and policy advisor; Benjamin Chance, minority 
clerk; and Mark Lavin, minority Army fellow.
    Mr. Tierney. My apologies to all the witnesses who were 
kind enough to come on time. We can't seem to manage the floor 
as well as we sometimes can manage the committee.
    We're now going to proceed with the hearing before the 
National Security and Foreign Affairs Subcommittee, ``Iran: 
Reality, Options and Consequences, Part 2--Negotiating with the 
Iranians: Missed Opportunities and Paths Forward.''
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements, and that the gentleman from Virginia, Congressman 
Jim Moran, be allowed to participate in this hearing, and that 
the record be kept open for 5 business days and that all 
members of the subcommittee be allowed to submit a written 
statement for the record. Without any objection on all, so 
ordered.
    I just want to welcome you again. I'm going to forego most 
of my opening statement in the interest of asking you folks to 
put your testimony on record and then as Members come back from 
the vote, we can hopefully have some questions and answers.
    I note that this hearing happens at a time when a lot of 
sabre-rattling and bellicose invective has been going on. I 
think it is appropriate for us to try to get a thoughtful and 
comprehensive approach to what is happening in Iran, about 
their people and society, about recent history and diplomacy, 
what lessons we can learn and possibly the consequences of any 
actions that might be proposed or considered. So hopefully we 
will do all this before any irreversible decisions are made, 
and this hearing is designed to move us in that direction.
    The rest of my statement I will place on the record, and at 
this point give the other Members a chance to have their other 
opening statements, the ranking member, at least, when he shows 
up.
    [The prepared statement of Hon. John F. Tierney follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Mr. Tierney. In the meantime, our panel today is composed 
of Ambassador James Dobbins, Hillary Mann Leverett, Flynt 
Leverett, Larry Haas and Suzanne Maloney. Our first witness 
will be Ambassador James Dobbins, who is the Bush 
administration's First Special Envoy for Afghanistan, who was 
intensely involved in talks with Iran concerning Afghanistan. 
Ambassador Dobbins has extensive diplomatic and negotiating 
experience, including having served as Special U.S. Envoy to 
Somalia, Haiti, Bosnia, and Kosovo.
    Ambassador Dobbins, we would love to hear from you, please. 
You have 5 minutes, but your written remarks will be placed on 
the record. So if you want to deviate from that, that is fine 
with us. We will try to be a little lenient with the 5 minutes, 
but also respectful of all your time for being here and having 
so much of it already pass by.
    We have a policy in this committee to swear all our 
witnesses in. So if all of you would please rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will reflect that all the panelists 
have answered in the affirmative. I thank you for that.
    Ambassador Dobbins.

STATEMENTS OF AMBASSADOR JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
 SECURITY AND DEFENSE POLICY CENTER, RAND CORP.; HILLARY MANN 
   LEVERETT, PRINCIPAL AND CEO, STRATEGIC ENERGY AND GLOBAL 
    ANALYSIS, LLC; FLYNT LEVERETT, SENIOR FELLOW, DIRECTOR, 
   GEOPOLITICS OF ENERGY INITIATIVE, NEW AMERICA FOUNDATION; 
  LAWRENCE J. HAAS, VICE PRESIDENT, COMMITTEE ON THE PRESENT 
 DANGER; AND SUZANNE MALONEY, SENIOR FELLOW, THE SABAN CENTER 
         FOR MIDDLE EAST POLICY, BROOKINGS INSTITUTION

             STATEMENT OF AMBASSADOR JAMES DOBBINS

    Ambassador Dobbins. Thank you, Mr. Chairman, and thank you 
for holding these important hearings.
    There is a popular perception in the United States that in 
the aftermath of 9/11, the United States formed a coalition and 
overthrew the Taliban. That is wrong. In the aftermath of 9/11, 
the United States joined an existing coalition, which had been 
trying to overthrow the Taliban for most of a decade. That 
coalition consisted of India, Russia, Iran, and the Northern 
Alliance. It was with the additional assistance of American air 
power that coalition succeeded in ousting the Taliban.
    That coalition, along with Pakistan, was also very 
important to the success that the United States enjoyed in 
replacing the Taliban within a matter of weeks with a moderate, 
broadly representative government in Kabul, which relieved the 
United States of the necessity of itself occupying and trying 
to govern Afghanistan. All of those countries, and in 
particular given the subject of this committee hearing, Iran, 
were particularly helpful in the diplomacy that led to the 
creation of the Karzai government. And in my written testimony, 
I provide some detail and some anecdotes which flesh out the 
nature of that cooperation and the degree to which it was 
indeed critical to the success of American diplomacy in the 
last months of 2001.
    In January 2002, the President in his inaugural address 
included Iran in what he characterized as an axis of evil. 
Despite that, the Iranians persisted for a number of months in 
offering significant cooperation to the United States. For 
instance, in March 2002, the Iranian delegation asked to meet 
with me on the fringes of an international meeting in Geneva 
that I was chairing on assistance to Afghanistan. They 
introduced me to an Iranian general in full uniform who had 
been the commander of their security assistance efforts to the 
Northern Alliance throughout the war.
    The general said that Iran was willing to contribute to an 
American-led program to build the new Afghan national army. 
``We are prepared to house and train up to 20,000 troops in a 
broader program under American leadership,'' the general 
offered. ``Well, if you train some Afghan troops and we train 
some, might they not end up having incompatible doctrines?'' I 
responded somewhat skeptically. The general just laughed. He 
said, ``Don't worry, we are still using the manuals you left 
behind in 1979.''
    I said, ``OK, well, they might have compatible doctrines, 
but might they not have conflicting loyalties?'' ``Well,'' he 
responded, ``we trained, we equipped, and by the way, we are 
still the ones who are paying the Afghan troops you are using 
in southern Afghanistan to chase down the remaining Taliban and 
al Qaeda elements. Are you having any difficulty with their 
loyalty?'' I acknowledged that insofar as I was aware, we did 
not, and I said I would report the offer back to Washington.
    Now, this offer struck me as problematic in detail but 
promising in overall implications. Despite the general's 
assurances, I could foresee problems in having Iran and the 
United States both training different components of the same 
Afghan army. On the other hand, Iranian participation under 
American leadership in a joint program of this sort would be a 
breathtaking departure after more than 20 years of mutual 
hostility. It also represented a significant step beyond the 
quiet diplomatic cooperation we had already achieved. Clearly, 
despite having been relegated by President Bush to the access 
of evil, the Hatami government wanted to deepen its cooperation 
with Washington and was willing to do so in the most overt and 
public manner.
    I went back, I reported these overtures to Washington. 
There was no apparent interest in discussing them, and as far 
as I am aware, the Iranians never got a response. There were, 
however, continued discussions with the Iranians, and a year 
later, in the aftermath of the American invasion of Iraq, the 
Iranian government again came forward with an even more 
sweeping offer, one that the witness sitting next to me will, I 
think, be able to talk about in a little more detail.
    Now, it is not a coincidence that both of these Iranian 
overtures came in the aftermath of an American intervention on 
their borders. In both cases, those American moves left the 
Iranian regime both grateful and fearful. They were grateful 
that the United States had taken down two of their principal 
regional antagonists. And they were fearful that they might be 
next, seeing as they did American troops to their north, based 
in central Asia, to their east in Afghanistan, to their south 
in the Gulf and to the west in Iraq. They were surrounded.
    Unfortunately, if the Iranian regime was feeling grateful 
and fearful, the American Government, and frankly not just the 
Government, people, Congress as a whole, were feeling supremely 
self-confident. In late 2001, we had overthrown Mullah Omar in 
a lightning campaign and then in 2003, we had done the same 
thing with Saddam. We were on a roll, acutely conscious of 
being the world's only superpower. There seemed nothing America 
could not accomplish. I suspect that the administration, 
therefore, saw no rush in responding to these Iranian 
overtures.
    As Afghanistan was stabilized and Iraq was democratized, 
the American position could only grow stronger. In good time, 
Washington could deal with the Iranian regime. Tehran's offers 
were becoming steadily better; why not wait for another year or 
two? Of course, events did not move in that direction. Since 
the last Iranian overtures of 2002, it is Tehran's position 
that has strengthened and hardened. In contrast, Washington's 
position has weakened and hardened. America's difficulties in 
Iraq are the principal cause of this shift.
    Americans are fond of chararacterizing the Iranian regime 
as a fundamentalist theocracy. The truth is more complex. Iran 
isn't Switzerland, but it is rather more democratic than Egypt 
and less fundamentalist than Saudi Arabia, two of America's 
most important allies in the region. Iranian women vote, drive 
automobiles, attend university in large numbers and lead 
successful professional lives. Iran's parliament and president 
are popularly elected. Elections take place on schedule. The 
outcomes are not fore-ordained. The results do make a 
difference, perhaps not as much of a difference as we would 
like, but enough to make the process worth understanding a good 
deal better than we do.
    Even the supreme leader is elected to a fixed, renewable 
term by a council of clerics who are in turn popularly elected 
by universal adult suffrage. The last election to that body was 
a setback for President Ahmadinejad. Presidential elections 
produce even more meaningful swings as can those in the 
parliament. Yes, the system is rigged, but not to the point 
that it becomes a complete sham, as in the case with many other 
Middle Eastern elections when such are held at all.
    In my judgment, Mr. Chairman, it is time to apply to Iran 
the policies which won the cold war, liberated the Warsaw Pact 
and re-united Europe; policies of detente and containment, 
communication where possible and confrontation whenever 
necessary. We spoke to Stalin's Russia; we spoke to Mao's 
China. In both cases, greater mutual exposure changed their 
system, not ours. It is time to speak to Iran, unconditionally 
and comprehensively.
    Thank you.
    [The prepared statement of Ambassador Dobbins follows:]

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Tierney. Thank you, Ambassador.
    Our second witness, Ms. Hillary Mann Leverett, directly 
participated in negotiations with Iran on behalf of the U.S. 
Government from 2001 to 2003. Shortly after 9/11/2001, she was 
tapped to serve as the Iran expert on the National Security 
Council. She is a career Foreign Service officer. Her service 
includes positions at the National Security Council with the 
U.S. mission to the United States and as special assistant to 
the U.S. Ambassador in Cairo, Egypt. From 1996 to 1998, she was 
a terrorism fellow at the Washington Institute of Near East 
Policy and has in the past been a Fulbright scholar and a 
Watson fellow. She speaks Arabic and has a great academic 
background as well.
    Ms. Leverett, would you care to address us for 5 minutes? 
Ms. Leverett, just before you start, I am going to ask 
unanimous consent of the committee that Mr. McDermott be 
allowed to sit in and participate under the committee's rules 
as well. Without objection, so ordered. Thank you.

               STATEMENT OF HILLARY MANN LEVERETT

    Ms. Mann Leverett. Thank you, Mr. Chairman. Thank you for 
inviting me here today.
    Iran's geo-strategic location, at the crossroads of the 
Middle East and Central Asia, and in the heart of the Persian 
Gulf, enormous hydrocarbon resources and historic role, make it 
a critical country for U.S. interests. However, since the 
advent of the Islamic Republic in 1979, Iran has worked against 
U.S. interests on a number of fronts. As a result, every U.S. 
administration since 1979 has sought to isolate and contain 
Iran.
    Yet Iran's undeniable importance in the Middle Eastern 
balance of power and in many areas of importance to the United 
States has prompted every U.S. administration--Reagan, George 
H.W. Bush, Clinton, and George W. Bush administrations--to 
explore some kind of opening to Iran, either through tactical 
cooperation or by testing the waters publicly. I was directly 
involved in the Bush administration's efforts to engage Iran 
over Afghanistan, al Qaeda and Iraq, both shortly before and 
after the 9/11 attacks. I will get to that in a moment.
    What I want to emphasize at the outset of my testimony is 
that Iran's tactical cooperation with every U.S. administration 
since 1980 was fundamentally positive in character. Iran 
delivered much, not all, but much of what we asked. 
Furthermore, and especially with regard to post 9/11 
cooperation over Afghanistan, Iran hoped and anticipated that 
tactical cooperation with the United States would led to a 
genuine strategic opening between our two countries. In most 
cases, however, it was the United States that was unwilling to 
sustain and buildupon tactical cooperation to pursue true 
strategic rapprochement.
    I will spell out this argument through the prism of my own 
experience in the current Bush administration. In late spring 
2001, I was a U.S. Foreign Service officer at the U.S. mission 
to the U.N. in New York responsible for dealing with 
Afghanistan. In that capacity, I was authorized to work with my 
Iranian counterpart as part of the Six Plus Two diplomatic 
process that had been set up by the United States to deal with 
the threats Afghanistan posed to the international community, 
even before 9/11. My Iranian counterpart and I worked openly 
and constructively on a wide range of Afghan-related issues, 
including the enforcement of an arms embargo on the Taliban 
regime, counter-narcotics initiatives and humanitarian relief 
for Afghan refugees, 2 million of whom were in Iran.
    On 9/11, I was scheduled to meet with my Iranian 
counterpart to discuss how to make sure that counter-terrorism 
was the centerpiece of a draft statement of principles for an 
upcoming Six Plus Two Foreign Ministers meeting at the U.N. in 
New York. Instead, the World Trade Center was attacked, and I 
was evacuated from my office at the U.S. mission. My Iranian 
counterpart called to express, in his words, his horror at what 
he thought was an al Qaeda terrorist attack on the United 
States. Without hesitation, he said the Iranian people and the 
Iranian government would be condemning this horrible attack on 
the United States and the entire civilized world.
    Within days, the Iranian government did come out to 
strongly condemn the attack, and thousands of Iranians took to 
the streets in Tehran in candlelight vigils to mourn those who 
had perished in the United States. Even Iran's supreme leader, 
Ali Khamenei, took the extraordinary step of unequivocally 
condemning al Qaeda and its attack on the United States in a 
Friday prayer sermon that was broadcast to tens of millions of 
Iranians and Shiite followers throughout the Middle East.
    For the first 2 months after 9/11, I worked openly and 
intensively with my Iranian counterpart to establish a 
framework for U.S.-Iranian cooperation in Afghanistan. My 
Iranian counterpart said that Iran was prepared to offer 
unconditional cooperation to the United States. Iran would not 
ask the United States for anything up front in return for its 
cooperation with Afghanistan.
    As I document in my written testimony, in the months after 
9/11, Iran provided tangible support to United States and 
Coalition military operations in Afghanistan and robust support 
to U.S. efforts to stand up a post-Taliban political order, 
culminating in the Bonn Conference, which my colleague, Jim 
Dobbins, lead the U.S. delegation to. Following the Bonn 
Conference and my transfer from the U.N. to the National 
Security Council to become Director for Iran and Afghanistan 
Affairs, the United States launched an ongoing channel of 
monthly meetings to coordinate our efforts on Afghanistan and 
related issues. I was one of two U.S. officials who 
consistently participated in those discussions, which lasted 
for 17 months. The other was Ryan Crocker, now Ambassador in 
Iraq.
    As I document in my testimony, the Iranians provided 
considerable assistance to bolster the pro-American Karzai 
government in Afghanistan and on counter-terrorism, including 
deporting hundreds of al Qaeda and Taliban figures seeking to 
flee Afghanistan to or through Iran. The Iranians skipped one 
monthly meeting to protest President Bush's public condemnation 
of Iran as part of the axis of evil in January 2002, but 
otherwise they came to every monthly meeting over the 17 month 
course of the talks.
    It is important to emphasize that in the monthly meetings, 
my Iranian counterparts repeatedly raised the prospect of 
broadening our common agenda, both to achieve a strategic 
rapprochement between the United States and Iran, as well as to 
provide tactical support to a prospective U.S. attack on 
Saddam's Iraq. The prospect of rapprochement with Iraq had been 
explicitly rejected by the President and his senior national 
security team. Whether we could have subsequent discussions to 
coordinate on Iraq became subject to whether Iran would turn 
over the remaining handful of al Qaeda operatives they had 
detained in Iran.
    But the Iranians first expressed an inability to find the 
remaining al Qaeda suspects we identified without any 
information from us as to their whereabouts. And later, the 
Iranians expressed an unwillingness to relinquish these last 
``cards'' without assurances from us that we would not use the 
Iranian opposition group, the MEK, and its armed forces in 
Iraq, against Iran. Although we provided Iran with assurances 
about the MEK in January and February 2003, after all, they 
were a designated terrorist organization by the U.S. 
Government. The Iranians were still concerned by the words and 
actions of senior Pentagon officials and later U.S. occupation 
forces in Iraq who not only refused to disarm MEK forces in 
Iraq but also designated the United States as protected persons 
under the Geneva convention in order to prevent their 
deportation by the Iraqis to Iran, even though the MEK had been 
designated by us as a foreign terrorist organization.
    Therefore, by the spring of 2003, the dialog was at an 
impasse. It is in this context that one should evaluate the 
Iranian offer to negotiate a comprehensive resolution of 
differences with the United States. With the bilateral channel 
at an impasse, Tehran sent this offer in early May 2003 through 
Switzerland, the U.S.-protecting power in Iran, as Secretary 
Rice and former administration officials have acknowledged. In 
the offer, everything would be on the table, including Iran's 
material support for Hamas, for PIJ, for Hizballah as well as 
its nuclear ambitions and role in Iraq. But the Bush 
administration rejected this proposal out of hand and cutoff 
the bilateral channel with the Iranians less than 2 weeks 
later.
    From an Iranian perspective, this record shows that 
Washington will take what it can get from talking to Iran on 
specific issues, but it is not prepared for real rapprochement. 
From an American perspective, I believe this record indicates 
that the Bush administration cavalierly rejected multiple and 
significant opportunities to put U.S.-Iranian relations on a 
fundamentally more positive and constructive trajectory. This 
mishandling of U.S. relations with Iran continues to impose 
heavy costs on American interests and policy efforts in the 
Middle East, on the Iranian nuclear issue, nuclear issues in 
Iraq and Afghanistan and Lebanon and in the Arab-Israeli arena.
    I want to note in closing that the White House has gone to 
extraordinary lengths, including outright abuse of executive 
powers, to keep me from laying out the full extent of the Bush 
administration's mishandling of Iran policies since the 9/11 
attacks. In December 2006, I co-authored an op-ed for the New 
York Times on this topic, using material that my co-author had 
previously cleared through through the CIA and had in fact 
published with CIA approval in several different places. When 
we submitted our joint op-ed draft for pre-publication review, 
my co-author was informed by a member of the CIA's pre-
publication review board that the draft, in the CIA's judgment, 
contained no classified material. Similarly, I was informed by 
a career officer at the State Department involved in the review 
process that in the State Department's judgment, the draft 
contained no classified information.
    However, my co-author and I were told by the CIA and the 
State Department that the White House had complained about my 
co-author's previous publications criticizing the Bush 
administration's Iran policy and insisted in censoring whole 
paragraphs of the prospective op-ed. The pre-publication review 
process is supposed to protect classified information, nothing 
else. But in our case, the White House abused its power to 
politicize that process, solely in order to silence two former 
officials who can speak in a uniquely informed way about the 
Bush administration's strategic blunders toward Iran.
    Neither my co-author, who is sitting beside me, and is my 
husband, nor I will disclose any classified information. I have 
not done so today and I don't think he will either. But neither 
will we be intimidated by a White House acting in a 
fundamentally un-American way to silence criticism of its 
policies. It is in that spirit that I have come forward to 
testify before you today.
    [The prepared statement of Ms. Mann Leverett follows:]

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. And I think it took some courage on your 
behalf to do that, and I appreciate it. The committee 
appreciates it and we want to thank you for that.
    Our next witness is Dr. Flynt Leverett, who served as 
Senior Director of Middle East Affairs at the National Security 
Council from March 2002 to March 2003. He has also served as 
the Middle East expert on the Secretary of State's policy 
planning staff and was a Senior Analyst at the Central 
Intelligence Agency, focusing on the Middle East for 9 years. 
Currently, he also publishes articles on the strategic 
implications of energy market trends, particularly in the 
Middle East, and studies the implications of structural shifts 
in global energy markets and develops analytical frameworks for 
thinking about energy as a foreign policy issue.
    Dr. Leverett, we would benefit from 5 minutes of your 
testimony as well.

                  STATEMENT OF FLYNT LEVERETT

    Mr. Leverett. Thank you very much, Mr. Chairman, Mr. Shays, 
for the chance to speak to the subcommittee today.
    As you were kind enough to allude in your introduction, I 
worked on Middle East issues in the U.S. Government for 11 
years, from 1992, the last year of the George H.W. Bush 
administration, until 2003, the year in which the United 
States, under the current Bush administration, invaded Iraq. 
During those 11 years, I watched U.S. standing and influence in 
the Middle East decline from the dominant, indeed hegemonic 
position that we enjoyed in the region after the first Gulf war 
to the, I would say, floundering and ineffective position that 
we occupy today.
    There are many reasons for the decline in America's 
standing and influence in what is arguably the world's most 
strategically critical region. Since walking out of the Bush 
White House in disgust in 2003, I have said and written 
publicly that I believe the Bush administration has made 
profound strategic blunders in its conduct of the war on 
terror, blunders for which we will continue to pay a price in 
the Middle East for many years to come.
    But I also believe that the Clinton administration, during 
its tenure, made profound strategic mistakes that contribute to 
our current rather parlous strategic condition in the Middle 
East. And I would note for the record, I am not working for 
anyone's Presidential campaign in this electoral cycle.
    While there are many factors that contribute to the decline 
of American standing and influence in the Middle East over the 
last 15 years, as I look at the record during that period, it 
seems to me that perhaps the single most important factor for 
our decline in this part of the world is a policy framework 
toward the Islamic Republic of Iran that is dysfunctional for 
U.S. interests on virtually all of the region's key security, 
political and economic challenges. Getting Iran policy right 
will not fix everything that is wrong with America's position 
in the Middle East. But I would argue that if we don't get Iran 
policy right, there is going to be little or no strategic 
recovery for the United States in this strategically vital 
region.
    Over the last couple of years, I would say there has been a 
growing recognition that our current policy toward Iran is 
dysfunctional, that we need to step up engagement with Iran. A 
growing body of politicians, distinguished foreign policy 
experts, and eminent persons groups like the Iraq Study Group, 
have all made this argument.
    In almost all these instances, recommendations for stepping 
up engagement with Iran take what I would call an incremental 
approach. In this approach, the United States would identify 
particular areas where American interests presumably overlap 
with those of Iran, such as post-conflict stabilization in 
Iraq, and would engage Tehran on those specific issues. If 
things went well, and a certain level of confidence were 
established, the range of issues under discussion could be 
gradually expanded.
    That kind of incremental approach seems prudent and 
relatively non-controversial, except perhaps to those, I would 
call them strategically autistic opponents, of any kind of 
engagement with Iran. Unfortunately, incrementalism is not 
going to work at this point to produce sustained, engaged 
improvement in U.S.-Iranian relations. Advocates of 
incrementalism ignore an almost 20 year history of issues-
specific engagement between the United States and the Islamic 
Republic, as my wife and former NSC colleague, Hillary Mann, 
documents in her testimony.
    In each case where issue-specific engagement was tried, it 
has essentially been the United States which declined to 
sustain that cooperation or to use that cooperation to explore 
possibilities for broad-based strategic opening with the 
Islamic Republic. Today the United States is pursuing extremely 
tentative issue-specific engagement with Iran over Iraq. The 
Bush administration has also indicated a highly conditional 
willingness to engage in multilateral talks with Tehran over 
Iranian nuclear activities.
    However, given the record of U.S.-Iranian tactical 
engagements since the late 1980's, at this point Iran is not 
going to offer significant cooperation to the United States, 
whether with regard to Iraq or the nuclear issue or anything 
else, except as part of a broader rapprochement with the United 
States that addresses Tehran's core concerns. This would 
require the United States to be willing, as part of an overall 
settlement, to extend a security guarantee to the Islamic 
Republic of Iran, effectively, an American commitment not to 
use force to change the borders or the form of government of 
the Islamic Republic, and to bolster such a contingent 
commitment with the prospect of lifting U.S. unilateral 
sanctions and normalizing bilateral relations.
    This is something no American administration has ever 
offered, and it is something that the Bush administration has 
explicitly refused to consider. I should note in this regard 
that some Iranian diplomats and academics say both publicly and 
privately that the Islamic Republic does not need security 
guarantees from the United States. However, when one asks those 
diplomats and academics what the Islamic Republic does require 
from the United States, they routinely talk about American 
acceptance of the Islamic Republic and recognition of a 
legitimate Iranian role in the region. It is precisely American 
acceptance of the Islamic Republic and recognition of 
legitimate Iranian interests that is the core of what I mean by 
a security guarantee.
    From an American perspective, it has to be acknowledged 
that no administration of either party would be able to provide 
a security guarantee to the Islamic Republic unless U.S. 
concerns about Iran's nuclear activities, its regional role and 
its support for terrorist organizations were definitively 
addressed. Addressing only one or some of these issues would 
not provide a politically sustainable basis for real 
rapprochement between the United States and Iran. That is why 
at this juncture resolving any of the significant bilateral 
differences between the United States and the Islamic Republic 
inevitably requires resolving all of them.
    Incrementalism will not work. A comprehensive approach 
aimed at negotiating what I and others describe as a grand 
bargain between Washington and Tehran in which all the major 
differences between the United States and Iran would be 
resolved in a package is the only strategy that might produce 
meaningful results. Implementing the reciprocal commitments 
entailed in a U.S.-Iranian grand bargain would almost certainly 
not be implemented al at once. But the commitments would have 
to be all agreed up front as a package, so that both sides 
would know what they were getting.
    Really what we need at this point is a reorientation of 
American policy toward the Islamic Republic of Iran that will 
be as fundamental and comprehensive as the reorientation of 
U.S. policy toward the People's Republic of China that took 
place in the early 1970's under President Nixon. Barring that, 
any kind of incremental diplomatic effort that is not cast on 
that kind of scale will fail, and U.S.-Iranian relations will 
continue in their current dysfunctional condition and indeed on 
their current trajectory. I would suggest that without that 
kind of fundamental improvement, we are looking at an eventual 
military confrontation between the United States and the 
Islamic Republic of Iran.
    This is really a time when sound policy requires 
fundamental re-thinking. It is really a case, at this point, of 
all or nothing. Ether we are prepared to put everything on the 
table with Iran and negotiate or else we are headed, at some 
point in the near to medium term, to some kind of military 
confrontation. I believe that the biggest loser in that 
confrontation in terms of strategic standing in the Middle East 
would be the United States, and not the Islamic Republic of 
Iran.
    Thank you very much.
    [The prepared statement of Mr. Leverett follows:]

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you, Doctor. We appreciate your 
testimony.
    Our next witness is Lawrence J. Haas. He is the vice 
president of the Committee on Present Danger. He also served as 
a visiting senior fellow at Georgetown University's Government 
Affairs Institute. He was the White House communications 
strategist, an award-winning journalist, has been a 
communications director and press secretary for Vice President 
Al Gore. He previously was communications director for the 
White House Office of Management and Budget. He served for 2 
years as director of public affairs and special assistant to 
the president of Yale University, where he led Yale's 
communication efforts. And from 2001 to 2005, he was senior 
vice president and director of public affairs at Manning, 
Selvage and Lee, one of the world's largest public relations 
firms.
    Mr. Haas.

                 STATEMENT OF LAWRENCE J. HAAS

    Mr. Haas. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Shays, members of the 
subcommittee, thank you very much for the opportunity to appear 
before you today. I appreciate the fact that my full prepared 
testimony will be inserted into the record, because I feel like 
in the 5-minutes allotted, I am going to go over it far too 
superficially. But perhaps we can get into more depth during 
the question and answer period.
    As you will see, I have a different view of things. Part of 
it has to do with a different interpretation of some recent 
events. But really, more of it has to do with a different focus 
that I want to take, so let me get to it.
    Mr. Chairman, I understand the desire to strike a grand 
bargain with Iran, as Flynt just mentioned, alluded to. I just 
don't think such a deal is there. Moreover, our efforts to 
strike one could hurt our national security, enabling Tehran to 
make more progress on its nuclear program while we negotiate, 
and driving away an Iranian population that hates the regime, 
supports democratic reform and thinks favorably of America. We 
are in the 28th year of our crisis with Iran. Perhaps we all 
agree on that. During that time, the regime has not changed in 
any significant way. It is aggressive, expansionist and rabidly 
anti-Western, and a growing threat to the security of the 
United States and its allies. In fact, it is growing more 
extreme.
    President Ahmadinejad subscribes to a radical strain of 
Islamic ideology that predicts the return of the 12th Imam, the 
so-called Mahdi, a Messianic figure from the ninth century who 
supposedly will reappear to signal the end of history and bring 
Islamic justice to the world. Ahmadinejad and others believe a 
violent confrontation with the west will be a harbinger of the 
Mahdi's return, and that Iran can speed that return by 
provoking that confrontation. This ideology, by the way, is 
shared by many hard liners in his cabinet, across the 
government and, very importantly, in the Islamic Revolutionary 
Guard Corps. I need not tell you what the implications of this 
would be were Iran ever to be able to develop nuclear weapons, 
of which I will talk about in another moment or two.
    Now, advocates of a grand bargain, as we hear, often say, 
and I think I heard an allusion to this a few moments ago, 
often say we can apply the cold war's containment policy 
against Iran. But containment assumes that the two sides at 
that time share the desire for life over death. That analogy 
makes no sense with a regime that seeks a violent confrontation 
with the West to bring about the end of the world. The fact is, 
Iran has been at war with the United States, which it calls the 
Great Satan, for 28 years. Rabid hostility is built into the 
DNA of the regime, serving almost as its raison d'etre. Iran's 
history of murder and mayhem against Americans directly or 
through its terrorist clients continues to this day, with Iran 
responsible for a growing share of American deaths in Iraq and 
Afghanistan. There is more detail of that in my prepared 
testimony.
    Iran is planning much more. Chants of ``death to America'' 
pervade its parliament and speeches by its top officials. 
Ahmadinejad has spoken of a world without America that is 
``attainable and surely can be achieved.'' I would just ask the 
members of the subcommittee to remember the words of Abba Eban, 
the former Israeli diplomat, who said ``It is our experience 
that political leaders do not always mean the opposite of what 
they say.'' Those who advocate a grand bargain should explain, 
with all due respect, why earlier efforts failed so miserably. 
Every White House, as we have heard, has sought to normalize 
relations with Tehran.
    But also, Great Britain, France and Germany spent 3 years 
negotiating with Iran over its nuclear program, offering a host 
of economic incentives. That is between 2003 and 2006. Iran is 
not interested in economic carrots or normalization, I would 
submit. Now we are in a race against time. Ahmadinejad has just 
announced, and I mean just within the last 24 hours announced, 
that Iran has 3,000 uranium enrichment centrifuges running at 
Natants. The continual running of those centrifuges for 1 year 
will produce enough enriched uranium for one nuclear bomb, 
which means that Iran could have a bomb by next fall.
    Fortunately, the story need not end there or with the 
choice between acquiescing in an Iran with nuclear weapons or 
military action to destroy or slow its program. We have other 
options. Iran's leaders are vulnerable economically in at least 
three ways. First, Iran has loads of oil, but it can't refine 
enough to fulfill its needs. It imports 40 percent of its 
annual gasoline consumption. We surely can squeeze the regime 
through tactics such as an embargo on gasoline imports.
    Second, Tehran requires $1 billion a year of foreign direct 
investment just to maintain the refining capacity it has. We 
should make it harder, as we are trying to do, for Iran to find 
that investment. Third, economic power resides most prominently 
with the extended family of former President Rasfanjani, with 
the foundations run by the supreme leader and with the Islamic 
Revolutionary Guard Corps. Sanctions can restrict their ability 
to participate in the global marketplace, and of course, we 
have gone somewhat down the road in that strategy as well.
    Iran's leaders, I also would like to point out, are 
vulnerable politically. Seventy percent of Iranians, according 
to a poll, favor better relations with the West. Two-thirds of 
Iranians are under the age of 35. They are restive and 
dissatisfied, and they can bring democratic change to Iran. 
There is plenty of stirring of democratic activism in Iran 
under horrendous conditions. We must strengthen our ties to 
these young activists, this younger generation, as we pressure 
the regime.
    And by the way, a grand bargain with the regime, in the 
unlikely event that we could secure one, I would suggest to you 
would move us in exactly the wrong direction when it comes to 
this next generation. They would view it as a U.S. betrayal of 
their hopes for a democratic future. We must not forget the 
long-term consequences of our activities.
    So we need a strategy that capitalizes on public disgust 
with Iran's regime, the vulnerability of its economy and our 
potential partnership with the Iranian people. While tightening 
the economic noose on the regime, we should talk directly to 
the Iranian people through TV, radio, the internet and other 
means of communication. I want to emphasize that I am 
separating our treatment of the regime from our outreach to the 
Iranian people.
    And one final point: many policymakers express alarm about 
tougher U.S-led sanctions because they view them as a precursor 
to war with Iran, and we saw that with the recent round of 
unilateral sanctions announced by the Bush administration. I 
have a different view. Sanctions are not a precursor to war if 
done correctly. They are an alternative to war. If we want to 
avert military action, and I think we all do, we must give a 
comprehensive program of economic pressure on the one hand and 
public outreach to the Iranian people on the other hand a 
chance to work.
    Mr. Chairman, Mr. Ranking Member, members of the 
subcommittee, that concludes my testimony. I look forward to 
the questions and answers at the appropriate time.
    [The prepared statement of Mr. Haas follows:]

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you, Mr. Haas. Thank you very much.
    The ranking member gives his apologies, he had to leave to 
go to the floor and speak, but he will be back. He apologizes 
to you for missing a part of your remarks, and to Dr. Maloney 
as well.
    Dr. Maloney has served as a public policy planning staff 
member at the U.S. Department of State from 2005 to 2007. She 
also was Project Director on the Independent Task Force on 
U.S.-Iran Relations on the Council on Foreign Relations from 
2003 to 2004, and Middle East advisor to ExxonMobil from 2001 
to 2004. Dr. Maloney, can we please hear your testimony?

                  STATEMENT OF SUZANNE MALONEY

    Ms. Maloney. Thank you, Mr. Chairman, members of the 
committee. Thanks very much for the opportunity to participate 
in this discussion today on what I think is a very important 
issue. I think this is a rare opportunity to have a serious and 
probing discussion on an issue that is too often the subject of 
a lot of tough talk, all heat and no light. So I am glad to be 
here and glad to have the opportunity to talk to you today.
    Since 2005, the administration has sought to devise a 
comprehensive approach toward Iran to deal with multiple areas 
of U.S. concern. The U.S. strategy was intended to present 
Tehran with a stark choice between moderation and isolation. 
Until relatively recently, Washington enjoyed unprecedented 
success in persuading a wide coalition of allies and 
international actors to support its efforts. Iran, of course, 
greatly contributed to uniting the world against it, 
particularly since the election of Mahmoud Ahmadinejad in 2005.
    Despite achieving this unprecedented international 
consensus, the latest U.S. strategy on Iran has borne very 
little fruit. More than anything, the failure of the current 
U.S. approach to Iran to achieve its aims reflects how complex 
and intractable this problem is. It has frustrated American 
officials from both sides of the political aisle for nearly 30 
years.
    But the failure is also a product of the disastrous 
diplomacy of the Bush administration toward Iran and toward the 
broader Middle East, informed by a set of mistaken assumptions. 
Understanding where we have miscalculated and more importantly, 
why it is important to ensuring that we avoid repeating or 
perpetuating flawed policies.
    Chief among the issues that have frustrated our strategy is 
its inherent inconsistency, particularly since 2005 and the 
beginning of this overture to negotiate with Iran over its 
nuclear program. The administration's efforts have been 
sabotaged by the impossibility of balancing this belated 
interest in diplomacy with a fundamental rejection of the 
Iranian regime's legitimacy. The bottom line is that no regime 
is likely to bargain away its ultimate deterrent capability so 
long as it perceives that the ultimate objective of those 
negotiations is its own eradication.
    In reviewing some of the missed opportunities that my 
colleagues here have discussed, I think it is important that we 
avoid constructing a narrative that places responsibility 
solely on Washington or even this administration for the 
perpetuation of the estrangement between the two countries. 
Engagement can be a powerful tool for dealing with Iran, but 
there is really no evidence at this time that Iranian leaders 
have ever been prepared, fully and authoritatively, to make 
epic concessions on key areas of U.S. concern.
    It is also important that we not perpetuate the idea that 
U.S. policy bears responsibility for the rise of Ahmadinejad 
and the other unfortunate trends that we have seen within Iran 
domestically over the past few years. We couldn't have saved 
the reform movement from itself. Really, Iranian hard liners 
are responsible for its ejection from the front lines of 
Iranian policy. Ultimately, American policy can't transform 
political dynamics within Iran today.
    But with the wisdom of hindsight, it is very clear that the 
Bush administration's miscalculations that have been based on a 
mis-reading of Iran's internal dynamics have forfeited perhaps 
the best opportunity in history to generate real momentum for 
at least beginning to solve some of the deep differences in the 
problems that we have with Iranian policy and actions. These 
miscalculations continue today.
    The key, as I said before, is this idea that the regime is 
either on the verge of crumbling, or that we, through our 
efforts, our diplomacy, our programming, have some capacity to 
take it down. It is an understandable presumption, and I am 
happy to get into some of the reasons why I believe it not to 
be the case. But I think we have certainly seen it borne out. 
Every time we expect the next revolution is imminent, we find 
ourselves disappointed yet again here in Washington. This idea 
that the regime was on its last legs I think has informed a 
number of the episodes that have been discussed today. 
Specifically, the administration's decision in May 2003 to 
suspend its dialog with Iran over Afghanistan that, as I 
understand it, had begun to deal with issues involving Iraq as 
well. It also informed the decision not to pursue the facts to 
offer a grand bargain that appeared to be an overture for mid-
ranking Iranian officials that came somewhere around the same 
time in 2003.
    I would also suggest that this belief in regime change 
informed the administration's decision slowly but very 
dramatically in the past 2 years to embrace a very high profile 
program for democracy support in Iran that has proven to be 
very ineffective and in fact, has been resented by many of the 
Iranian advocates who it is intended to support.
    I will not spend an inordinate amount of time on the 
specific historical episodes. My colleagues on this panel were 
there and participated in them and I think have already spoken 
in depth about those episodes. But I would highlight this 
Geneva track, or the dialog on Afghanistan, as potentially the 
most important miscalculation that the Bush administration 
committed. These talks were really unprecedented and important 
on two distinct levels. This was the first sustained officially 
sanctioned dialog between American and Iranian officials since 
the revolution. Second, as my colleagues have suggested, they 
really did produce some concrete results. This path, it seems 
to me, might have offered the best prospect for moving forward 
toward a less contentious relationship between Washington and 
Tehran in dealing with many of the key issues of our concern.
    It is tempting to talk mainly about the past here. But I 
would like to spend a few moments focused on the path forward. 
Because ultimately, that is really the challenge before us 
today. While I don't have a fully comprehensive offer, and I 
tend to be a skeptic on the issue of the possibility of 
pursuing a grand bargain, I would like to lay out a couple of 
principles that I think can usefully inform a future policy 
toward Iran that may bring us more benefits than what we have 
seen from the Bush administration's approach to date.
    First, I think we have to start with the acknowledgement 
that diplomacy is our only effective tool. We simply do not 
have viable military options toward Tehran, either in dealing 
with its nuclear program or eliminating this regime. Anything 
that we might attempt would certainly do more to undermine our 
interests across the Middle East than it would to advance them.
    Starting with that, I think it is important to reaffirm the 
importance of engagement as an appropriate and effective tool 
for addressing our differences with Tehran. Many of those who 
favored engagement have become a little less vocal in recent 
years. It was a lot easier to talk about engaging with Tehran 
when the people that you were talking about talking to were 
potentially more palatable individuals than a man who denies 
the Holocaust and threatens to wipe the State of Israel off the 
map.
    And yet I think the best argument for engagement never 
constituted one that focused on who we might be talking to, but 
really, one that focuses on the seriousness of the issues at 
stake between us. The aim of diplomacy is to advance the 
interests, not to make friends or endorse enemies. Engagement 
with Tehran is not an automatic path to rapprochement, nor 
should it involve a unilateral offer of a grand bargain. But it 
would simply return to the long-held position that really was 
axiomatic in American policy until 2003 that the United States 
is prepared to talk with Iranian leaders in a serious and 
sustained way in any authoritative dialog as a means of 
addressing the profound issues of concern that we have with 
Iranian policy.
    Let me also just speak, third, to another principle that I 
think is important that we appreciate when we look toward 
formulating an effective policy toward Tehran. And this is that 
modest steps are unlikely to bring about revolutionary changes 
in Iranian policy. I say this because everywhere I go these 
days, there is a lot of interest in the financial measures that 
the administration has taken, particularly the banking 
restrictions that have begun to constrict Iranian access to the 
international financial system as a whole.
    We know these measures have had some bite and have caused 
great inconvenience to Tehran and raised the cost of doing 
business. They can potentially begin to change the strategic 
calculus. They will not produce a u-turn, and certainly will 
not do so in the near or medium term, simply because Iran, so 
long as it continues to export oil, will bring in approximately 
$70 billion a year in revenues. That is enough to cushion this 
regime for the foreseeable future. So while I think it is 
important to look toward what incremental steps we can take to 
pressure the regime, we should be careful not to put our eggs 
in a basket that is unlikely to produce the result we are 
looking for.
    Fourth principle is simply that we need a broad coalition 
for dealing with Tehran. This gets back to many of the other 
steps that some of my fellow panelists here have proposed. 
There is often a debate about whether sanctions that are 
applied narrowly but that are stiffer are more valuable than 
those that are applied broadly but might be of a lesser common 
denominator value. I would suggest that Iranians are very 
averse to being isolated, and they feel the nature of their 
isolation very keenly. At this stage, those sanctions that 
involve only the departure of European companies, even 
Europeans, the Japanese and others, only create new 
opportunities for actors from particularly China and Russia to 
fill that gap. So I would suggest that measures that sustain 
the international coalition, rather than those like the 
designation of the Revolutionary Guard Corps, that are likely 
to create new frictions with our allies in China and Moscow on 
this issue are the ones we have to be pursuing.
    Finally, and here I set myself apart from my neighbor here, 
I would argue that containment is a viable alternative 
strategy. Of course, it is second best. But no careful study of 
Iranian foreign policy would suggest that Iran is somehow a 
suicidal state. And containment promises the considerable 
virtue of being an achievable aim of U.S. policy. We have in 
fact contained Iran over the past 28 years, except insofar as 
where we have created opportunities, particularly in Iraq, for 
Iran to expand its influence, simply because it was very well 
predisposed and pre-positioned to do so.
    I think the prospective choice for the international 
community, as articulated recently by French President Nicholas 
Sarkozy between an Iranian bomb and bombing Iran is a false 
one. That kind of rhetoric only obscures the dimensions of this 
critical dilemma and narrows our options unnecessarily. The 
real challenge for Washington is devising a strategy that 
maximizes our leverage for negotiating with Tehran, while 
restoring confidence in our capacity and that of our allies to 
manage the Iranian regional challenge.
    Thank you.
    [The prepared statement of Ms. Maloney follows:]

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much.
    I want to thank all of you for your testimony. I think it 
really crystallizes the history but also what we are looking at 
here and what the choices are.
    I am going to start the questioning. I have three areas 
that I am probably not going to get to finish in my short time, 
but hopefully we will get another run at this. I want to talk 
about a little of the history and the lost opportunity, because 
I think there are some issues I want to flesh out. I want to 
talk about going forward, the use of sanctions and whether or 
not we ought to focus intently on Mr. Ahmadinejad as opposed to 
Iranian people who might be in that position from time to time. 
Then I want to talk a little bit, Ms. Leverett, about the White 
House politicization of some of the things around that op-ed. I 
think that is important for us to get into.
    Let me start, Ms. Leverett, by asking you, on page 6 of 
your testimony, you give a little bit of history, you go from 
page 5 to 6, which I thought was fascinating, of all the 
opportunities that you experienced in your own life of ways 
that we might have reached out or accepted a hand that was 
reached out to us on that. On page 6, the one that I think 
strikes us today, given what is going on in Pakistan, as it 
impacts Afghanistan, you say that in December 2001, Tehran 
agreed to keep Gulbuddin Hekmatyar, the brutal pro-Taliban 
warlord, from returning to Afghanistan to lead jihadist 
resistance, so long as the Bush administration did not 
criticize it for harboring terrorists.
    But in his January 2002 State of the Union address, 
President Bush did just that in labeling Iran part of the axis 
of evil. Unsurprisingly, Hekmatyar managed to leave Iran in 
short order after the speech. I would just make note that Mr. 
Hekmatyar is now giving us conniption fits in what he is doing 
in Afghanistan, and he is a very serious player in Pakistan and 
Afghanistan right now.
    Can you expand on those lists of things that you think were 
opportunities and the importance that they play? Tell us, I 
don't think you fleshed out, had the opportunity or time to 
tell us some of the other things that were possible with the 
Iranians, give a list of individuals who were associated with 
al Qaeda and so on.
    Ms. Mann Leverett. Thank you, Mr. Chairman. That was an 
important moment. Gulbuddin Hekmatyar is and was a vicious, 
brutal warlord, anti-American but also anti-Taliban. And 
because he had been anti-Taliban, he had been allowed to have 
refuge in Iran. But the Iranians were never comfortable with 
his presence there, and did assure us that they would prevent 
him from going back to Afghanistan, as long as we didn't accuse 
Iran of harboring terrorists. Because he certainly would be 
considered one.
    That was a serious miscalculation on our part, in my view. 
The Iranians not only seemed interested and willing to 
cooperate and coordinate with us with the likes of Hekmatyar, 
but other people that were seeking to come into Iran. The 
border between Iran and Afghanistan, or the triangular area 
between Iran, Afghanistan and Pakistan is porous, it is 
infested with criminal gangs, drug traffickers, all sorts of 
terrorists and spies from the various countries. It is a pretty 
lawless area. Iran frequently told us that it was difficult for 
them to patrol that area, but that in the interest of working 
with us and in support of the United States after the 9/11 
attacks, they would do what they could to patrol that border.
    And in February 2002, the then-Deputy Foreign Minister of 
Iran presented the U.N. Secretary General with copies of 200 
passports of suspected al Qaeda suspects that had come into 
Iran, that Iran had picked up and deported. Iran was interested 
in talking to whoever would talk to them about others that had 
come into Iran but that Iran did not have a relationship with 
the country of origin for some of those terrorists. Let me give 
you an example, more of a theoretical example here, that Iran 
and Egypt don't have diplomatic relations, and they don't have 
intelligence cooperation or any kind of contacts in that regard 
and certainly didn't then.
    Many of these, or some of these, people could have been 
from Egypt, and Iran did not have a way to deport them to 
Egypt. But they did deport others: the Saudi foreign minister 
and interior minister came out in June 2002 and publicly said 
that Iran had deported suspected al Qaeda suspects of Saudi 
origin to Saudi Arabia. So there is also public documentation 
of those.
    Mr. Tierney. Thank you.
    Ambassador, on page 5 of your testimony that you didn't 
have a chance to speak to orally, you tell, I think, of an 
interesting meeting. You had a conversation with Secretary 
Powell about your experiences and the overtures made through 
you. Secretary Powell suggested you bring that to then-National 
Security Advisor Rice, who then held a meeting with you, 
Secretary Powell, National Security Advisor Rice and Secretary 
Rumsfeld. Would you go into that a little bit in detail?
    Ambassador Dobbins. I was asked to recount my conversations 
with the Iranians, which I did very much along the lines that I 
have recounted them here, their offer to participate in an 
American-led program to train and equip the new Afghan army, 
clearly under an overall American umbrella. After a few minutes 
of silence at the end of my presentation, nobody took up the 
issue. And as far as I know, the Iranians never received a 
response.
    Mr. Tierney. Go ahead, Ms. Leverett.
    Ms. Mann Leverett. I just wanted to come back again to the 
issue of al Qaeda. Because I think in particular Dr. Maloney 
has testified that she thinks that the continuation of the 
dialog of Afghanistan to expand into other areas would have 
been useful. The al Qaeda issue is critical in that regard. The 
Iranians did do a lot on the al Qaeda issue, they did deport, 
or they presented evidence of deporting hundreds, 200 al Qaeda 
operatives. We then had the public confirmation from other 
countries like the Saudis. But we did claim that there were a 
handful of al Qaeda operatives that were still in Iran. And we 
made that a test of the dialog, for it to continue and for it 
to move into cooperation and coordination on Iraq.
    Whether or not the Iranians could or didn't want to meet 
that test is an open question. First they said that they 
couldn't meet that test, because as I laid out, this area was 
not only porous, criminals, drug traffickers, anti-Iranian 
government elements in this area, but they said that it was 
hard for them to track down really a lot of people in that 
area, and they needed help from us. They needed more 
information from us, any information from us that was not 
forthcoming from our side.
    We took it as a test. If they were really serious, they 
would send in whoever they needed to send in to ferret out 
those guys and hand it over.
    My view was that we should have, and we could have, 
provided some information to them, or whatever they needed to 
make them successful in fighting al Qaeda. But instead, we 
decided to turn it into a test, and that is the problem with 
pursuing this kind of tactical operation on very narrow issues, 
that you can get bogged down, as every instance has, since the 
Reagan administration, every one of these Presidents has tried 
an opening, has tried tactical cooperation and has gotten 
bogged down on an important issue. Here the dialog was at an 
impasse. We could not get past the issue of whether or not Iran 
was just unwilling or unable to hand over the remaining al 
Qaeda operatives.
    Mr. Tierney. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I thank all the 
witnesses for being here and participating in this important 
hearing, and thank the chairman for continuing the process of 
reviewing our Nation's best approach with Iran.
    I want to start with a question that we talked about in our 
hearing last week regarding the designation of the Iranian 
Revolutionary Guard as a terrorist group and the Senate vote. I 
think I am correct in saying, Dr. Leverett and Ms. Mann 
Leverett, that you both believe that would be, is an error for 
us to do so. Is that correct?
    Mr. Leverett. I certainly think it is counter-productive as 
a matter of policy. It is not going to accomplish anything 
constructive for U.S. interests. I think it will make it harder 
down the road to engage Iran seriously. The Revolutionary Guard 
is roughly 125,000, 130,000 people. If you count their families 
you are probably easily talking more than a half a million 
people. It is in many ways fairly broadly representative of 
Iranian society. Singling them out for this kind of treatment 
is not going to make it easier for the United States to engage 
Iran.
    Mr. Platts. So it is not that you don't think they are a 
terrorist group to meet the definition, but how it impacts our 
broader negotiations with Iran, is that accurate?
    Mr. Leverett. That is right. I think in too many instances, 
we impose unilateral sanctions on Iran, not because it is 
actually going to help us achieve some policy objective, but 
because it makes us feel good to do that. There is no evidence 
that these kinds of unilateral designations will do anything to 
advance our policy agenda toward Iran.
    Mr. Platts. Does that apply then to other terrorist 
organizations around the world, or other nations that are 
sponsoring terrorism, that it is meaningless and actually hurts 
our interest to properly designate an entity that is engaged in 
supporting terrorism?
    Ms. Mann Leverett. Let me say, I think it is analogous in 
some ways to the decision to disband the Iraqi military after 
the overthrow of Saddam Hussein. In this situation, you are 
talking about at least 125,000 armed, trained, well-funded 
people in Iran, and their extended families, who are dependent 
upon these Rev Guard members for their entire livelihood. We 
want something from them. They are not like al Qaeda that we 
don't want something from. We want something from the Rev 
Guard. We want them to deliver in Iraq so that our soldiers are 
protected and so that we can succeed in Iraq. We want them to 
deliver on the nuclear issue, to be able to come clean and at 
least have that program fully monitored, if not disbanded. We 
want them to deliver in terms of their support or their 
connections to Hamas and the Islamic jihad. We actually want 
something from them.
    So it is analogous to disbanding the Iraqi military under 
Saddam Hussein. I wouldn't have said, I don't think many people 
would have said, that these are nice people or good people. But 
we needed that military force in Iraq after 2003, just like we 
are going to need to work with the Revolutionary Guard if there 
is going to be any kind of resolution to our disputes with 
Iran.
    Mr. Platts. But there certainly--I am trying to get what 
approach we should take of when we should designate an entity a 
terrorist group, when we shouldn't. And there are others that 
we want something from in the sense of changing their actions 
to improve peace in a region or directly with us that are 
either sponsoring terrorism, or again, terrorist organizations 
themselves. It seems that we should not designate anyone a 
terrorist group or a terror-sponsoring nation, because that may 
make us feel good, in your words, but it is not going to help 
us achieve a broader good.
    Mr. Leverett. There may be practical reasons to designate 
non-state organizations as terrorist organizations in order to 
help with various kinds of enforcement efforts against them. I 
would say, in terms of the state-sponsored designation, I can't 
think of a single instance in which designating a state as a 
state sponsor of terrorism has actually helped to get that 
state out of the terrorism business except possibly in the case 
of Libya, where we were prepared to put it on the table that if 
you were willing to get yourself out of the terrorism business, 
this designation could be removed. We have never made that kind 
of offer to the Islamic Republic of Iran. We have never made it 
to Syria. It is hard to see what that designation is actually 
accomplishing in terms of advancing American interests.
    In the case of the Rev Guard designation, I would suggest 
this is the first time that we have designated part of a 
sovereign government not just as a sponsor of terrorism, but 
actually as a designated global terrorist. If you believe that 
is going to advance our agenda, that is fine.
    Mr. Platts. And I don't mean to cut you off, because we are 
given 5 minutes, Mr. Chairman, can Mr. Haas respond to that 
same question? If that is OK. Thank you.
    Mr. Haas. We have been, through the State Department, 
designating state sponsors of terrorism for quite some number 
of years. I think there is a certain value in clarity. I think 
it is important that the State Department tells the American 
people who is doing what around the world. It is the case that 
the Islamic Revolutionary Guard Corps is an arm of the Iranian 
government. It is at this very moment supplying the weaponry 
that is killing our soldiers in Iraq.
    To the extent that we have an ability, through designation 
and then followup steps to put pressure on the IRGC and try to 
convince them to move in a different direction, I think that is 
something that we should try. I think the problem, frankly, 
with a lot of what we have tried to do is that we have had, as 
I think Ms. Maloney said before, a kind of disjointed effort 
where we have been only partially serious when we have tried to 
do something. We have moved through pressure to diplomacy to 
pressure to diplomacy.
    But I must say, I am, No. 1, not morally offended by the 
idea of designating states or groups that do things and clarify 
what it is they do. And I am not terribly sympathetic with the 
idea that this Corps of 125,000 people, which is right now 
engaged in killing American soldiers, should somehow take a 
back seat to the fact that if we designate them, they won't be 
able to feed their families.
    Mr. Tierney. I don't think that was an acceptable response, 
what he said about feeding their families or whatever, but that 
is just one person's impression on that.
    Mr. Platts. Well, Mr. Chairman, it was repeated by both 
witnesses who answered that was part of the reason we 
shouldn't, the impact on the families that provide their total 
livelihood----
    Mr. Leverett. The issue is what will work and what won't.
    Mr. Tierney. I am sorry, Dr. Leverett, what?
    Mr. Leverett. The issue was not one of feeding families. 
The issue is, what is the impact of this designation going to 
be inside Iran and is this going to increase the chances that 
we will be able to advance our policy agenda, or will it in 
fact decrease the chances that we can advance our policy 
agenda. It is not about whether this is morally justified or 
not. The issue is what is going to work for American interests.
    Mr. Tierney. Ambassador.
    Ambassador Dobbins. If the Revolutionary Guard were a rogue 
force that you wanted to single out, if it was a rogue force 
that was acting independently, then there would be a logic to 
singling them out, because otherwise they wouldn't be covered. 
We have already singled out Iran. The Revolutionary Guard is 
acting, not as a rogue force, but as an instrument of Iran.
    Mr. Platts. Not according to the government of Iran. They 
are not acknowledging that they are part of their government in 
the terrorist-supporting activities.
    Ambassador Dobbins. But they are also arguing that they are 
not doing it. So I mean, I think that Iran is not trying to 
disassociate itself from the Revolutionary Guard. They may be 
trying to disassociate the Revolutionary Guard from terrorism.
    So the issue of whether you need to go beyond designating 
Iran and also designate a subordinate element of Iran really is 
a pragmatic one. You have solved your moral problem, you have 
designated the terrorists. It is the state of Iran. Do you want 
to go beyond that and sanction a particular component of that 
government in an effort to affect its policy?
    So it is a question of, do you think you are going to get 
less terrorism or more terrorism as a result of this. Everybody 
can make their own judgment. As another witness has noted, we 
are at the end of 28 years of a policy of sanctions and no or 
little communication. That particular policy mix hasn't been 
working very well.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Tierney. Mr. Yarmuth is recognized for 5 minutes.
    Mr. Yarmuth. Thanks, Mr. Chairman, and thanks to all the 
witnesses.
    I mentioned the story in Esquire that featured the two of 
you last week, so I am very pleased that you are here today.
    Something has been troubling me ever since reading the 
story in Esquire, and I hope somebody can explain this to me. 
If we are engaged in back-channel communications with a company 
that we are publicly saying we are not talking to, what is the 
purpose of saying publicly that we are not talking to them if 
they know that we are actually behind the scenes talking to 
them? Who is that aimed at?
    Ambassador Dobbins. In some cases, it can be designed to 
protect the government. In other words, there have been 
occasions on which the Iranians wanted to talk to us, but 
weren't prepared to admit that they were talking to us because 
of their own domestic opinion. So there have been occasions in 
which this has been kept quiet in deference to their public 
opinion, rather than ours. I suspect mostly it has been mutual, 
though, that is, communication has been controversial in both 
societies, and therefore both governments had some interest in 
keeping it out of the newspapers.
    Mr. Yarmuth. I guess I would followup, Ms. Leverett, if you 
are going to answer this, in this particular case, what would 
have been our Government's purpose in doing that, in 
maintaining that public posture?
    Ms. Mann Leverett. First of all, not all the communication 
was back-channeled. The cooperation and the coordination on 
Afghanistan, particularly in the Six Plus Two process was open, 
was public, was constructive. The ministers met, Secretary 
Powell met with Foreign Minister Harzai as part of the Six Plus 
Two in November, I think it was November 10, 2001. We were 
actually, we were in the basement, in a meeting room in the 
basement of the United Nations when one of, an American airline 
actually crashed in Queens and there was a lockdown at the U.N.
    The Pakistani minister was late, he didn't get there, the 
building was locked down. We were there with Foreign Minister 
Harzai, Secretary Powell, Secretary General Annan, Barheimi was 
there as special representative, Jim Dobbins was there, others 
were there. Harzai, the Foreign Minister of Iran at the time, 
had his prepared remarks, but then he hand-wrote into his 
prepared remarks that he was horrified by what could be yet 
another attack on the United States and that Iran stood with 
the American people against this kind of terrorism. One of his 
aides brought it to me and I had it passed to Powell.
    So people saw that. These were things that were open and 
public. The meetings that we would have with the Iranians in 
Paris and Geneva were not secret. They weren't advertised, but 
they weren't secret. Then in terms of why that would be the 
case, I think that Jim is absolutely correct, that there are a 
lot of hesitations and divisions on the Iranian side.
    But I think even more importantly, they are because of 
divisions and consternation that would be caused here in the 
United States. First and foremost, from what I experienced were 
divisions within the administration, I think that people at the 
State Department were much more willing and interested in 
having clear, transparent talks with the Iranians. But people 
at the Pentagon and in the Vice President's office were 
absolutely against it. They thought that even the idea of 
talks, whether they be back-channel or public, would be some 
sort of reward for the Islamic Republic, and would put an 
imprimatur on the Islamic Republic that it was somehow 
legitimate, that the United States would legitimate this 
Republic for another generation, and that itself was not moral. 
I was in the room when the President said that as well, that 
kind of, that the United States could put that kind of 
imprimatur on the Islamic Republic and legitimate it. That was 
not something he was prepared to do publicly.
    But then even a little bit more broadly, I think the 
biggest thing was within the administration, the deep, deep 
divisions within the administration. But then I think this 
administration probably, like other administrations that I 
document in my testimony, this isn't the first time. The 
Clinton administration had talks also with the Iranians over 
arming the Bosnian Muslims to prevent ethnic cleansing there.
    Similarly, those talks were cutoff when the presumptive 
candidate Dole in 1996 learned of them and was going to 
embarrass the administration. We have had this happen, Iran 
Contras is a famous example of that. Immediately, whenever 
there is any idea that it could be, the American public could 
know that the United States may want to engage Iran, the United 
States cuts those talks off. There is, I think, an idea that 
within the U.S. body politic, they would not be sustainable. So 
for very political and in my view crass reasons, every 
administration, Reagan, Clinton, George H.W. and this George W. 
Bush have cutoff talks with Iran that could have been 
productive because of both political reasons here and because 
there is no broader strategic context to have the talks.
    I think for most people to be having talks with Iran or 
with any group that is actually against U.S. interests, if you 
are having those talks and then there is a bombing, like there 
was on May 12, 2003 in Riyadh, Saudi Arabia, and that could 
somehow be connected to Iran, and we are sitting with them at a 
table, that is seen as unsavory. You need to have, as Flynt has 
laid out, the grand bargain in order to have these kind of 
narrow tactical talks. It is very difficult to be sitting and 
talking with the Iranians or whoever else it is when there are 
bombings going on at other places and people could be, rightly 
or wrongly, accusing the Iranians of being behind those 
bombings. We need to have the strategic context where we are 
also talking about terrorism, we are also talking about the 
nuclear issue, other issues, so that in each one of these 
narrow dialogs, they are protected from the next suicide bomber 
who is going to literally drive a truck through those talks.
    Mr. Tierney. Thank you, Ms. Leverett.
    Mr. Lynch you are recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for putting this together. I want to thank 
our witnesses for helping the committee out with this problem.
    We talked about, I know a number of you mentioned the 
opportunity to use sanctions might be an alternative to 
something more serious. I wanted to talk about that. There were 
some remarks in today's testimony that suggest that the Oil for 
Food program, which was a sanction, a limited sanction, was a 
workable model. But to be honest with you, from my standpoint, 
I know that Saddam ended up with about $8 billion that he 
should not have had under that sanction.
    Looking at Iran, looking at the fact that I think there are 
1,700 German companies in there doing business right now, Italy 
is its third largest trading partner, India has interests 
there, there are a whole lot of folks that rely heavily on 
Iranian oil and have other relationships there. The 
effectiveness of any sanction program will depend on the 
willingness of our international partners to help us to 
implement that. I just have great doubt of the effectiveness of 
a sanction program. I have noted it in several versions of the 
testimony here today, so I just want to throw that out there. 
Tell me I am wrong and tell me how we can actually put in an 
effective program of sanctions that might help bring them to 
the table.
    Mr. Leverett. Mr. Lynch, I think your skepticism is very 
well-founded. As I suggested earlier, I don't think U.S. 
unilateral sanctions have accomplished anything of strategic 
significance in regard to Iran, and that would include the more 
recent rounds of unilateral financial sanctions that have been 
imposed. I think frankly, the multilateral sanctions that have 
been imposed through the Security Council so far have also not 
had any kind of strategic impact on Iranian decisionmaking.
    I think you are exactly right, the chances of our managing 
to muster enough international support for a multilateral 
sanctions which might in theory put that kind of pressure on 
the Iranian regime, frankly, I think the 12th Mahdi is more 
likely to return than for us to get that kind of support for 
multilateral measures. We have to face the reality that there 
have been some very, very important changes and structural 
shifts in global energy markets.
    Iran has the second largest proven reserves of conventional 
crude oil in the world, it has the second largest proven 
reserves of natural gas in the world. U.S. policy at this point 
is that oil and gas should stay in the ground until we, for 
reasons that will have nothing to do with the global energy 
balance, decide it is OK to bring it out. In this day and age, 
that position is simply not sustainable. It means that if we 
think either unilateral or multilateral sanctions will solve 
this problem for us, we are dreaming.
    Ambassador Dobbins. Could I talk a little bit about that, 
Mr. Lynch?
    Mr. Lynch. Certainly.
    Ambassador Dobbins. I think the record of sanctions is a 
little better than Flynt or you have suggested. First of all, 
the sanctions on Iraq were remarkably effective, probably the 
most stringent and effective sanctions regime in history, as 
the administration's own reports done after the invasion have 
demonstrated. They meant that the Iraqi regime could not 
reconstitute its WMD programs. They meant that its conventional 
military became weaker year after year.
    Eight billion dollars in assets is certainly a problem. But 
Iraq exports about $60 billion a year worth of oil, and you had 
10 years worth of sanctions. That is $600 billion of which he 
got $8 million and he didn't get $592 billion. So with oil at 
$100 a barrel, Iran is going to have a significant degree of 
latitude. But it is compared to what? In the absence of 
sanctions, Iran would be enjoying a much higher level of 
prosperity.
    Mr. Lynch. Ambassador, you have made a fair point. I just 
don't want it to gobble up all my time. I have one other 
question, if I may. That is this, well, there are important 
differences. We went through Iraq pretty thoroughly during the 
Gulf war. We haven't been through Iran. So I don't think 
sanctions would work effectively in Iran.
    But let me just ask you this. A number of you said about 
the delicacy of negotiating or even opening a dialog with Iran 
or moderate elements within Iran. It is a sensitive issue. We 
have been approached, members of this committee have been 
approached by members of the Bundestag and some other groups 
that say, let's start dialog at some level. From your own 
experience, how the heck does that happen? How do we have a 
quarantine sort of----
    Mr. Tierney. Excuse me, which one of the panelists would 
you like to answer that, because we really----
    Mr. Lynch. Ambassador Dobbins----
    Mr. Tierney. Ambassador Dobbins, could you respond to that?
    Mr. Lynch. Ms. Leverett actually addressed this point in 
her remarks, so why don't I ask her. How does that happen, if 
we are trying to be brought into this dialog, how does that 
happen?
    Ms. Mann Leverett. Basically an inter-parliamentarian 
dialog, essentially, between the House and Senate, House or 
Senate Members and Iranian parliamentarians. Senator Biden 
actually proposed that in, I think it was the spring of 2002, 
and brought it to the White House to see whether he could get 
some support for it or permission for it or something like 
that. There was the kind of, by this point, it is probably well 
known, some ideological opposition in some quarters to that 
kind of dialog. Then there was just the kind of logistical 
idea, how could this work, how could it work with visas, how 
could it work with herding cats, in a sense, was the idea on 
both sides.
    Between 2002 and 2004, I thought it was an incredibly 
important idea, and I advocated for it within the White House. 
At that time, actually starting in the year 2000, the Iranian 
Parliament, between 2000 and 2004, had the freest, most 
contested elections that it has had in some time. The 
parliament had a significant number of reformists in it, 
particularly the committee that dealt with foreign affairs and 
national security issues was a very robust, vigorous committee.
    Let me give you an example. If you recall, in January 2002, 
right before the President's State of the Union, where he 
designated Iran as part of the axis of evil, there was an 
incident called the Karin A shipment, probably about 50 tons of 
weapons that were said to have shipped from Iran going toward 
Gaza and headed toward Yasser Arafat. It was a little bit 
strange, because the Iranians had never supported Yasser 
Arafat. They have always supported Hamas or PIJ or other 
Islamist organizations, not Arafat himself. But still, this was 
out there, and the President and Secretary of Defense were 
making public statements about how terrible it was that Iran 
would be arming, would be trying to get this type of weaponry 
to Arafat.
    This committee in the Iranian parliament looked into this, 
and they chose to investigate. There were press items at the 
time coming out of Iran that the committee had hearings, 
questioned people. One of their findings was that the ports on 
the coast or Iran were not all that well managed, were not all 
that well regulated, and perhaps this ship could have left from 
Iranian waters, even though the Iranian government actually 
denied that it authorized the shipment. Now, dealing with Iran, 
this is a really important issue. You have the government of 
Iran, officials saying we didn't authorize it, it doesn't mean 
it didn't happen. And we have the same situation today with 
Iraq, whether they are authorizing IEDs to go into Iraq or not, 
these weapons are getting there. So this is an important issue.
    The parliament and parliamentarians looked into it, and 
they made their recommendations of perhaps how they could deal 
with it. It would have been very useful for members of this 
committee and others to be able to meet with those Iranians and 
give them the support they needed to take those ideas further. 
Unfortunately, the new parliament in Iran is not nearly as 
forward-leaning. But I would still say that as you all know, 
from being elected, you have constituents at home, I would say 
that most Iranians probably do not want their country to be 
attacked. They do not want to have a bad relationship with the 
United States. It would be something worth pursuing. It is a 
difficult environment, but I would pursue it if you can.
    Mr. Tierney. Thank you, Mr. Leverett.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. I thank you all for being here. I was on the 
floor because of the debate on the Employment Non-
Discrimination Act.
    This is a hugely important issue. I sense that we have four 
people who see one way and one person who sees it a different 
way who happened to work with Vice President Gore, which makes 
it all the more interesting. I want to say first, it is a 
stunning thing that a country would take and seize diplomats 
and hold them for 444 days. That is a stain on Iran that is 
palpable. Even in times of war, you exchange your diplomats. 
And it is palpable to me that Iran basically funds or trains 
Hamas, funds Hizballah and has been incredibly active in Iraq 
killing American soldiers.
    So I believe in dialog, but I don't want to look like fools 
in the process. I don't want us to have a view that says the 
more you attack us and the more you hurt us, the more we want 
to talk to you. It seems like a strange incentive.
    But at the same time, I happen to think there should be 
embassies at every country. There should have been in Iraq. We 
should have one in Cuba, we should have one in North Korea and 
we should have one in Iran. I believe that very strongly.
    What I would like to know is, I would like a simple answer 
from each of you: do you believe, and I will start with you, 
Ambassador, that Iran is seeking to develop nuclear weapons?
    Ambassador Dobbins. I believe Iran is seeking to develop 
the capability to develop nuclear weapons, whether they have 
made a decision to go beyond----
    Mr. Shays. But the point is, once they have done the 
capability, they could do it in months if they had the 
capability.
    Ambassador Dobbins. They would be at the position to----
    Mr. Shays. So you believe they want to develop the 
capability for nuclear weapons. I just want to know. I want to 
know where you are coming from.
    Ms. Leverett.
    Ms. Mann Leverett. I would agree with Jim Dobbins. I do 
think they are trying to have a breakout capability. I would 
point out----
    Mr. Shays. I only have a few minutes and you have had 
plenty of time to talk. Dr. Leverett.
    Mr. Leverett. I would agree with Jim Dobbins and my wife.
    Mr. Shays. Thank you. Mr. Haas.
    Mr. Haas. Well, I absolutely agree, and you may have been 
out of the room before when I mentioned this, but Ahmadinejad 
just announced that he has 3,000 centrifuges fully working in 
Natants, and if those are working and running----
    Mr. Shays. See, I don't really believe him.
    Mr. Haas. Well, that is fine, but the IAEA also estimated 
that he would have about 3,000 around this time of year.
    Mr. Shays. But the bottom line is, you believe he is 
wanting the capability for nuclear weapons, right?
    Mr. Haas. Not just him. I think the upper echelon of the 
government of Tehran shares that hope.
    Mr. Shays. Dr. Maloney.
    Ms. Maloney. Yes, I would agree with all of my fellow 
panelists that Iran is seeking capability for nuclear weapons. 
Whether they have made the decision to weaponize at this stage 
I think remains an open question.
    Mr. Shays. Let me start with you. Do you believe that Iran 
is providing IEDs to militia and al Qaeda in Iraq?
    Ms. Maloney. I believe that Iran is supporting Shia and 
other militias in Iraq with munitions as well as financial 
support.
    Mr. Shays. Not IEDs?
    Ms. Maloney. Munitions as well as financial support, yes.
    Mr. Shays. Mr. Haas.
    Mr. Haas. All sorts of weaponry and funds as well, I agree.
    Mr. Shays. Dr. Leverett.
    Mr. Leverett. Iran has been supporting Shia militia groups 
in Iraq for more than 20 years. I am not surprised they are 
continuing to do it.
    Mr. Shays. Is the answer yes?
    Mr. Leverett. Whether or not it is specifically IEDs, I 
have seen no public evidence of that.
    Mr. Shays. You have seen no evidence that the weapons that 
we have taken apart are not connected? You need to be, it seems 
to me, as candid with me as you are about things you want to be 
candid about. You do not believe that Iran has provided IEDs to 
various elements with Iraq? You do not believe that?
    Mr. Leverett. I said that Iran has clearly provided 
munitions and other kinds of support to Shia militia groups. 
Whether that extends specifically to IEDs, I don't----
    Mr. Shays. So you don't know if they have provided IEDs?
    Mr. Leverett. I have not seen what I consider persuasive--
--
    Mr. Shays. Do you believe they have or not?
    Mr. Leverett. It is entirely possible.
    Mr. Shays. Do you believe they have or not? I want to know 
what you believe. You either believe they have or you believe 
they haven't. Which is it?
    Mr. Leverett. I am saying I don't know whether they have 
provided IEDs specifically.
    Mr. Shays. OK. What do you think, Ms. Leverett?
    Ms. Mann Leverett. I also don't know. I know the history or 
the 20 years support. So I wouldn't be surprised, but I don't 
know.
    Mr. Shays. What do you think, Ambassador?
    Ambassador Dobbins. I think they have. I think it is a 
small minority of the IEDs we have encountered. But some of the 
more sophisticated ones----
    Mr. Shays. Let me explain to you why it wouldn't be the 
small. There are two types basically. There's just the 
munitions that they grab up and explode, and then there are 
munitions, IEDs that they can direct and they are 
extraordinarily sophisticated and they are made by the 
Iranians. There is no question in the mind of anyone I have 
spoken with who cares to know it that they have provided it.
    Ambassador Dobbins. I am not arguing that.
    Mr. Shays. It is not an argument that we shouldn't have 
dialog.
    Ambassador Dobbins. Right.
    Mr. Shays. But it is surprising to me, both Mr. and Ms. 
Leverett, that you do not have a sense of what they have done 
and yet you are real experts on Iran. I would think you would 
care to know. I would think you would seek out to know and it 
is surprising to me that you don't know.
    Now, let me ask you another question. Your basic point is 
that, with you, Ms. Leverett, that under the Bush 
administration we missed opportunities. And you said, well, 
other administrations have as well. Tell me an opportunity the 
Reagan administration missed, tell me an opportunity the Bush 
administration, the first, tell me an opportunity the first 
Clinton administration missed.
    Ms. Mann Leverett. Sir, I wouldn't necessarily characterize 
them as opportunities missed. I think that each administration 
did look for and participate in an opening, trying to have an 
opening with Iran. Of course, during the Reagan administration, 
it is well known what came to pass in the Iran Contra scandal. 
There of course were openings, there were talks, there was a 
visit to Tehran and there was the sale of missiles to Tehran in 
order to divert those proceeds to the contras in contravention 
of Congress. That was during the Reagan administration.
    During the first Bush administration, George H.W. Bush, 
there were contacts in order to get U.S. hostages released from 
Lebanon. There was a pledge by President Bush at the time that 
goodwill would beget goodwill. One of the Iranians that I was 
charged with talking with as part of the dialog under this Bush 
administration had a very strong memory of that and had felt 
that Iran had done what was asked of it and did not receive any 
reciprocal moves in return from the first Bush administration.
    During the Clinton administration, another one of my 
interlocutors that I was charged with meeting during this Bush 
administration was a high-ranking Iranian official serving in 
the Balkans. He said that he had talks with his American 
counterpart in Bosnia, and that there was an agreement for Iran 
to be able to get weapons to the Bosnian Muslims to avert 
further ethnic cleansing. He said that he thought it was 
worthwhile to have talked to the Americans and to have gotten 
those weapons to the Bosnian Muslims, but that their talks, 
that effort was cutoff precipitously in 1996. He took a lesson 
from that it was hard to deal with the United States. That was 
the Clinton administration.
    Then under this administration----
    Mr. Shays. Well, I think you were clear, and I am not 
disagreeing with your points. I wrote down ``crazy.'' I think 
you saw opportunities that this administration could have 
seized. I have seen the same thing with Syria. In dialogs that 
I have had with Syria, it has been a bipartisan kind of 
craziness, in my judgment, that I think you are very legitimate 
in sharing with us. The challenge I have is that as we keep 
waiting to have dialog and things get worse, it almost is a 
perverse incentive. The more you do, the more terrible things 
you do to us, the more we should be paying attention to you, 
and so we are going to start to.
    What I sense with this administration, when it was with 
Syria, they missed an opportunity when there was the 
opportunity for dialog, and then Syria started to do some 
things that really were outrageous, in our judgment. I had the 
Ambassador come to me and plead with me to see if we could have 
some interaction. I said, well, it is because you are doing 
things in Iraq. And he said, you know, tell us whatever we are 
doing wrong, we will stop. Whatever we are doing wrong, we will 
stop. We said, yes, we know three things you are doing wrong, 
stop that, we want you to stop the other seven. The problem is, 
we give grief about what they do and they act like we don't 
know that they are doing it.
    So I mean, what I wrestle with is with this administration 
having failed to seize the advantage when there was an 
opportunity and it was lower level, and now things are hotter, 
do we then say, OK, let's do it because then it seems to me we 
have just said to them, the more outrageous you become, the 
more we are going to deal with you.
    Maybe, Mr. Haas, and I would have others respond to my 
point. I wrestle with this.
    Ms. Mann Leverett. Can I please, I think it is only fair--
--
    Mr. Shays. Hold on 1 second. With all due respect.
    Mr. Tierney. We will see that you get time.
    Mr. Shays. I will make sure you get time. But I get to 
decide who answers questions. You have answered most to 90 
percent of the questions.
    Mr. Haas.
    Mr. Haas. I certainly would not question any of the back 
and forth that they have been more involved in than I have. But 
I would suggest to you that there is a very big difference 
between temporary marriages of convenience between enemy states 
who see it within their joint interests to do something 
together at any one particular moment, like remove the Taliban, 
for instance, from Afghanistan, clearly in both nation's 
interests. And this question of a grand bargain, where we both 
are going to set aside all our differences, I differ, I 
suspect, with my colleagues, because I go back to those more 
basic questions of the embassy seizure, the Hizballah bombing 
of Marine barracks, sanctioned by Iran, Kobar Towers, and 
things going all the way up to the present with the weapons and 
the money in Afghanistan.
    Mr. Shays. But the question that arises, had we jumped in 
sooner, would those further things have happened? Could we have 
done something to change the direction of this country?
    Mr. Haas. I believe that the Iranians have taken a series 
of messages from us that have been unhelpful, not responding as 
strongly as we might have with regard to the embassy takeover, 
certainly our response to the Marine barracks bombing, where we 
redeployed out of Beirut was a signal to the Iranians. I tend 
to agree with you, I think we are showing great tolerance, 
although some of the rhetoric has changed, we are showing great 
tolerance to what the Revolutionary Guard, and I suspect with 
the approval of the highest level of the government is doing to 
our troops in Iraq.
    Mr. Tierney. Thank you. I do want Mr. Welch to get a chance 
to ask his questions, Mr. Leverett and Ms. Leverett, so would 
that be fine with you, Mr. Shays? They will respond but then we 
will move to Mr. Welch.
    Mr. Shays. Yes. I would like for Dr. Maloney to respond as 
well.
    Mr. Tierney. Dr. Leverett.
    Mr. Leverett. I would like to just ask a question. Let's 
assume that in fact, everything that is claimed by some is true 
about the supply of IEDs by Iran to Shia militia groups in 
Iraq. Let's assume that is true.
    Mr. Shays. I don't have to assume it. I have seen them.
    Mr. Leverett. Fine. Then in 1972, when President Nixon made 
his trip to China, people like Senator Webb in the other House 
have said that at that time China was supplying weapons to the 
Viet Cong and to the North Vietnamese army, and that Senator 
Webb and his comrades were being shot at, hurt and killed by 
that weaponry. Was President Nixon wrong to go to Beijing under 
those circumstances?
    Mr. Shays. No, but he wouldn't have denied that they were 
doing it. And you would have more credibility with me, both of 
you, if you had said, of course they are doing that, but we 
need to deal with it in a different way. That is where you 
would have had more credibility.
    Mr. Tierney. Mr. Shays, I am just going to interject for a 
second. In the hopes of helping us all out here, with respect 
to that issue, I have somewhat of an advantage, from serving on 
the Intelligence Committee as well, things that I can't talk 
about directly. But what I will recommend to you with respect 
to the certainty or uncertainty of whether or not those IEDs, 
where they are manufactured, where they are delivered and who 
is in charge of sending them out, delivering them, I suggest 
you and I jointly send a letter to CENTCOM at the Department of 
Defense asking which U.S. casualties are from IEDs linked to 
Iran to determine whether or not they actually know.
    Mr. Shays. And Iraqi----
    Mr. Tierney. Exactly. But I think it would be instructive 
and helpful to you on that particular issue, and somewhat I 
think those questions do exist. I think it is important for 
everybody to know that.
    Ms. Leverett.
    Ms. Mann Leverett. Thank you. I want to take issue with the 
idea that I wouldn't care to know. I think that is unfair. I do 
care to know, I do read and study and watch this very closely. 
General Peter Pace, for example, someone who I have worked with 
at the White House, who I have enormous respect for, publicly 
came out and questioned the administration's case when it was 
first laid out. I read that and I took it seriously.
    People should have had more skepticism as well before we 
went into Iraq on the issues of whether there were WMD, a 
nuclear weapons program in Iraq. I don't think it is worthwhile 
to jump to judgment on something that I don't know, but I don't 
think it is right to say something about me not caring to know. 
I certainly do care to know. I take it seriously. Any American 
soldier who has lost his life because of anything that has to 
do with Iran I think is wrong.
    My policy prescription may or may not be similar to yours, 
but it is not fair or right to say I don't care.
    Mr. Shays. Fair enough.
    Mr. Tierney. Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you very much.
    I am just reacting to the good grilling that my friend from 
Connecticut gave everybody and thinking about what your answers 
would have been in March 2003 when the administration assured 
us with 100 percent certainty that there were weapons of mass 
destruction and that was a known fact. So I for one, anyway, 
appreciate the old Reagan maxim of ``trust but verify.''
    Mr. Haas, I am interested in this question, whether you 
agree with Dr. Maloney, which I understood your testimony, Dr. 
Maloney, was that there is an option of dealing with the 
nuclear proliferation threat in Iran, serious threat, the 
military force is not a practical option.
    Mr. Haas. I am not a military expert by any stretch of the 
imagination. But I would suggest that it does depend on what it 
is you are trying to accomplish through a military option. If I 
could just stipulate that I am not advocating a military 
option, if I could please stipulate that, because I know that 
is a subject of some sensitivity for everyone involved in this 
debate. I would suggest to you that I don't know that there is 
a huge amount of doubt that the United States alone or working 
on concert with its allies could slow the nuclear program down, 
could complicate the nuclear program in Iran. I don't know that 
there is great doubt about that.
    Now, that leads into questions of regime change, which is 
not anything that I am advocating. I do think at the end of the 
day, we are going to have to decide as a country, hopefully 
after we try all sorts of other things more seriously than we 
have tried them, like sanctions and public diplomacy and 
outreach and encouragement of democratic change, we are going 
to have to decide as a country whether it is more dangerous to 
acquiesce to an Iran with nuclear weapons or it is more 
dangerous to actually try to slow or end that program. That is 
really for you to decide. I do have a perspective. I don't know 
that I know of anything more dangerous than I can envision as 
this regime with nuclear weapons.
    Mr. Welch. So the unanswered question, because you say you 
don't have enough information, is whether the use of military, 
the military option would be effective?
    Mr. Haas. It would be at least, I am confident that it 
would be at least somewhat effective in the sense of slowing 
the program down. I do not know that it would eliminate the 
program.
    Mr. Welch. And what would be the collateral consequences of 
a military strike if we were to pursue that as a way of slowing 
it down?
    Mr. Haas. There is great debate on what the reaction of the 
Iranian people would be. They clearly do not----
    Mr. Welch. Here is what I want to ask you. We have a 
problem, and that is, nuclear weapons possibly being in the 
hands of Iran. That is a threat.
    Mr. Haas. Right.
    Mr. Welch. OK, agreement on that. And this is not a moral 
or philosophical or theological question. There is a practical 
decision that has to be made where none of the choices that we 
will make are particularly good. In this sense, I don't see 
there to be a difference in you and Dr. Leverett. You might 
come down on different sides of what is ``practical.'' But 
everyone up here would prefer to have a non-nuclear Iran.
    There is a significant drumbeat that we use the nuclear 
option to slow or stop the threat to the extent it is there. If 
you make the decision to move ahead with the military, then you 
have a responsibility, not you, but all of us, to No. 1, have a 
very clear and informed conclusion, opinion, really, about will 
this work. No. 2, what are the consequences. Obviously, people 
did not go through that process in the whole Iraq war. There 
were collateral consequences to toppling Saddam that we were 
not prepared to deal with.
    So the question I have is, assuming we did use the military 
option in some form, and most people are talking about an air 
strike, what would be the collateral consequences, those being 
the reaction in the Muslim world, the reaction in Iran, the 
threat to the security of our troops in Iraq, the 
intensification of Iran's support for Hamas or other third 
parties that would attack American interests in other parts of 
the world? And if you are even, not you individually, but if 
one is entertaining the military option, I believe you would 
agree with me that they have to have answers to those 
questions. I am asking you for your position.
    Mr. Haas. Certainly. Let me say a few things. First, I 
would agree that to the extent that there is any reluctance on 
the part of Iran to unleash its terrorist clients in more 
aggressive ways, I would have to conclude that reluctance would 
disappear.
    Having said that, with regard to the region, I would like 
to point something out. There is great fear throughout that 
region about the Iran nuclear program. For many years, those 
nations in the region assumed that Israel has nuclear weapons. 
I think there is a general assumption that it does, although it 
has not admitted it. None of those countries, other than Iraq, 
had a nuclear program in the past. Right now, we know that at 
least 10 nations in that region, including Egypt, Saudi Arabia, 
Jordan and Turkey, have announced that they will have a nuclear 
program, although they have said it is for peaceful purposes, 
but nobody believes it. They are worried about the Iranians.
    I would suggest to you that the reaction in the region may 
be one of quiet relief if we slow down that program. Having 
said that, I would expect there to be some level of turmoil 
from the simple fact that there is military action in that 
region and it is by the United States. I would expect there to 
be some turmoil. But at the end of the day, Congressman, it is 
a tradeoff. What is more dangerous, the turmoil that you create 
or the regime with nuclear weapons? I worry, I suppose, a bit 
about the latter.
    Mr. Welch. Which we all do.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Moran from Virginia, you are recognized for 5 minutes.
    Mr. Moran. Thank you very much, Mr. Tierney.
    I would like to focus for the time being on Ambassador 
Dobbins. I had to go over and speak on the bill on the floor. 
Has anybody grilled the Ambassador yet?
    Mr. Tierney. He has gotten off pretty easy, but he has had 
some good comments to make.
    Mr. Moran. Well, now, it is his turn, then. I know you 
know, Mr. Chairman, that Ambassador Dobbins has phenomenal 
experience, they send him to just about every troubled area no 
one else in their right mind would want to go to: Bosnia, 
Kosovo, Haiti, Somalia, you name it. And Afghanistan is one of 
those. I read the article in Esquire by Mr. and Mrs. Leverett, 
I was extraordinarily impressed. So I don't know that I need to 
ask them questions.
    But I would like to pursue something with Ambassador 
Dobbins, and I am obviously going on here as I am looking for 
the right questions. First of all, some yes and no answers 
would be appropriate. The Northern Alliance were our allies 
when we went into Afghanistan, in fact, the leader of the 
Northern Alliance was the guy that we were anticipating working 
with, because he was very much allied with the United States. 
Was Iran helping the Northern Alliance?
    Ambassador Dobbins. Yes.
    Mr. Moran. They were? Did Iran contemplate going to war 
with the Afghani Taliban?
    Ambassador Dobbins. At one point, when some of their 
diplomats were seized and killed.
    Mr. Moran. So they were in the same position as we were, 
that the United States was, but before the United States in 
terms of recognizing the repressive policies of the Taliban. 
Did our special forces work with Iranian troops or agents in 
Afghanistan in the Afghan war when we went to war with the 
Taliban?
    Ambassador Dobbins. Not directly that I know of.
    Mr. Moran. Did they coordinate in any way?
    Ambassador Dobbins. I don't believe that there was good 
diplomatic coordination. There was some intelligence 
coordination. I don't believe there was any direct military 
coordination.
    Mr. Moran. Were they of any consequence in our prevailing 
in that war against the Taliban?
    Ambassador Dobbins. I think that their contribution was on 
the one hand, having sustained the Northern Alliance for most 
of a decade, and continuing to sustain it, to pay it, to train 
it, to support it during the conflict, including after 9/11, 
and then directly on the diplomatic side, in which they did 
collaborate with us quite effectively.
    Mr. Moran. Now, after the major hostilities, and obviously 
they are still going on, but we needed to put a government 
together. Iran knew the language, they knew many of the people. 
They had been involved more, they were a neighbor of 
Afghanistan. Did they offer to help us put together a stable 
government that would work with the United States?
    Ambassador Dobbins. They did, and they brokered some of the 
key compromises that led to the success of the Bonn conference 
where the Karzai government was selected.
    Mr. Moran. How about putting together the kind of Afghan 
army that government that we would want to establish would need 
in order to restore order and maintain order?
    Ambassador Dobbins. They offered cooperation, but the 
United States didn't pick up the offer.
    Mr. Moran. What was the form of that cooperation, 
Ambassador? What did they offer to do for the United States?
    Ambassador Dobbins. They said they were prepared to train 
and equip up to 20,000 Afghan recruits under a program to be 
directed by the United States.
    Mr. Moran. Did you communicate that to Washington, the 
decisionmakers in the Bush administration?
    Ambassador Dobbins. Yes.
    Mr. Moran. And what was the response?
    Ambassador Dobbins. There was no interest in picking up the 
offer.
    Mr. Moran. I guess you wouldn't be necessarily one to ask, 
but since you are aware of this, which most people don't seem 
to be, would that have made a material difference in terms of 
the stabilization of Afghanistan?
    Ambassador Dobbins. I think they could have made a 
contribution. Our own efforts to train the Afghan national army 
stumbled rather badly that first year. We had to start all over 
again a year later.
    But I think that the offer was even more important for its 
symbolism, for a willingness to come out of the closet and work 
overtly with the United States in a practical way on a military 
to military level and in a clearly subordinate position.
    Mr. Moran. We went into Afghanistan because al Qaeda 
attacked us. Did Iran express an interest either by words or by 
actions in defeating al Qaeda or in showing solidarity with our 
objectives against al Qaeda?
    Ambassador Dobbins. Yes. They issued supportive statements 
after 9/11 and indicated a willingness to cooperate with us, 
both in a military campaign and in diplomacy.
    Mr. Tierney. Thank you, Mr. Moran.
    Mr. Moran. Thank you, Mr. Tierney. I have one further 
question.
    Mr. Tierney. Go ahead.
    Mr. Moran. Who was aware of the fact that in terms of the 
decisionmakers, we would recognize who knew that Iran was 
helping to restrain al Qaeda, to defeat al Qaeda, really?
    Ambassador Dobbins. I believe the administration as a whole 
was aware of that.
    Mr. Moran. When you say the administration, could you name 
anybody in particular that you know was briefed on that fact, 
on Iran's positive role in Afghanistan?
    Ambassador Dobbins. All of the NSC principals, Secretaries 
of State, Defense, National Security----
    Mr. Moran. Secretary Rumsfeld, Secretary Rice, Secretary 
Powell?
    Ambassador Dobbins. Yes.
    Mr. Moran. Thank you. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Moran. Thank you for joining us 
today.
    Mr. McDermott, you are recognized for 5 minutes.
    Mr. McDermott. Thank you, Mr. Chairman, for having this 
hearing.
    In an article on Sunday in the McClatchy Washington Bureau 
entitled ``Experts: No Firm Evidence of Iranian Nuclear 
Weapons,'' Mr. ElBaradei is quoted as saying, ``I have not 
received any information that there is concrete activity, 
active nuclear weapons program going on right now.'' Now, 
everyone sort of jumps at that ``right now.'' The press also 
has been for the last 3 or 4 months, 6 months maybe, carrying 
reports of special forces operating inside of Iran. Do you know 
about whether that is true, if it is, under what kind of a 
finding or what is the basis for us operating in Iran with any 
kind of military operation?
    Ms. Maloney. Can I just speak to that, as the person who 
has most recently served, at least at the State Department? I 
think that is a question that is obviously best asked to the 
administration and probably in another sort of setting than 
this one.
    Mr. McDermott. Does anybody have anything to say about it?
    Mr. Leverett. I won't duck that one, Congressman. I 
obviously know nothing by way of classified information on 
this, or I couldn't speak about it in this setting. I, like 
you, have seen the press reports about U.S. military personnel 
operating in Afghanistan. It has long been the approach----
    Mr. McDermott. In Afghanistan or Iran?
    Mr. Leverett. In Iran, I am sorry, I mis-spoke. In Iran. It 
was certainly the policy of the Defense Department under 
Secretary Rumsfeld that U.S. military forces could be used for 
such purposes without requiring the normal kind of covert 
action finding which would under normal circumstances have to 
be briefed at least to the oversight committee on the Hill.
    Whether that is in fact what is happening in the case of 
Iran today I don't know what the facts are, but it is certainly 
plausible to me that U.S. military forces could be operating 
inside Iran under the rubric of collecting intelligence or some 
other similar rubric. It would be the position of the Defense 
Department, unless policy is changed, that action would not 
require a covert action finding.
    Mr. McDermott. And who would make that decision, that it 
didn't require a covert action finding? Would that be the 
Secretary or the President?
    Mr. Leverett. I would assume at a minimum that the theater 
commander and the Secretary of Defense would need to sign off 
on that. Whether it goes higher, I couldn't say.
    Mr. McDermott. Is there any basis on which they could be in 
there without the committees of the Congress, the Intelligence 
Committee or whatever, being made aware that they are 
collecting data on targets for an air war?
    Mr. Leverett. I believe that the Defense Department could 
and might have made a claim that under those circumstances, 
collecting intelligence, preparing the battlefield, that covert 
action findings are not required. Therefore, it wouldn't have 
to be briefed to the oversight committees.
    Mr. McDermott. I ask the question because it is very 
strange what is going on in Syria, where there was an attack 
and the American Government doesn't want to say anything and 
the Syrians don't want to say anything and the Israelis don't 
want to say anything. But the stories are coming out now that 
there were in fact operatives on the ground directing the 
bombing that occurred there. Is that a tactic that is used?
    Mr. Leverett. Certainly my understanding is that for 
tactical air operations of that sort, from a military 
standpoint, the accuracy, the effectiveness of those operations 
is improved if you can have on-the-ground spotters. Whether or 
not that is actually what happened in the case of the Israeli 
air raid on the Syrian target, I couldn't say. It is because I 
don't know.
    Mr. McDermott. So what they do is they put a laser or 
something, so that laser-guided bombs will come in exactly on 
the spot that they want them to?
    Mr. Leverett. I don't know precisely what technologies are 
used. My understanding is that it increases the accuracy and 
effectiveness of those kinds of tactical air operations if you 
can have people on the ground.
    Mr. McDermott. Would you give us, I would like all the 
panelists, if they will, to give us a percentage on whether 
there will be an air attack in the next 9 months. Ambassador.
    Ambassador Dobbins. There is in fact a commercially run 
pool on this. [Laughter.]
    And it was 38 percent, last week, was what it was running, 
38 percent that there would be over the next, I think that was 
over the next 12 months.
    I would put it a little lower than that, because it seems 
so obviously counter-productive. But what do I know? I didn't 
think they would be foolish enough to go into Iraq. [Laughter.]
    Mr. McDermott. Ms. Leverett.
    Ms. Mann Leverett. I would put up for a 9-month period, 
over a 9-month period, I would put it at about 50 percent, and 
that would be based on my analysis that the diplomatic process 
is collapsing and the President will be faced with a binary 
choice.
    Mr. Leverett. I would agree with that, over 9 months. I 
don't think it is going to happen tomorrow or next month, but 
as it continues to play out over a 9-month timeframe, I think 
the odds will increase. I would put them at about 50/50.
    Mr. McDermott. Mr. Haas.
    Mr. Haas. I don't strongly disagree with that. I was going 
to say, before they started talking, I was going to say 40 to 
50 percent over the next 9 months or so.
    Ms. Maloney. It is good to be in the position of saying 
something controversial on this discussion. I would put it at 
about 15 to 20 percent. That is based on my experience in the 
State Department, working very closely with the Secretary and 
particularly Under Secretary Burns on Iran. Obviously that is a 
biased view, because of course, the State Department is in the 
art of diplomacy.
    But I would also argue that if you look at the Bush 
administration's track record over its now almost two full 
terms in office, what you see is an increasing reversal in its 
positions, particularly on the nuclear program. So while the 
negotiations have obviously gone nowhere, I think it is far 
more likely that the administration will seek to find some sort 
of way, desperate way, to get some sort of negotiating track 
underway.
    I would also argue that the administration perceives itself 
to be far too invested in Iraq and in recent weeks, far too 
invested in some sort of prospect of restarting the Israeli-
Palestinian peace process to go the route of bombing, because 
of the obvious implications it would have for those two 
efforts. I say all those, having been someone who in 2002, 2003 
was 100 percent sure that the administration would go into 
Iraq.
    Mr. Tierney. Thank you very much. Thank you, Mr. McDermott.
    Dr. Maloney, you are the one with the most recent insight 
into this administration, you were a policy planning staff 
member from 2005 right through 2007. So can you tell us what 
your confidence level is about the current executive branch 
policymakers' understanding of Iran?
    Ms. Maloney. I think that is a perennial issue. 
Unfortunately, because of the lack of contacts, because of the 
lack of an embassy, we simply have very little ability to 
understand what is happening inside the country. Secretary Rice 
has acknowledged that publicly in an interview she gave earlier 
this year where she said, we just don't know. It was shocking 
to me to come in in 2005 and realize that there was effectively 
almost no one in the entire State Department building who spoke 
Persian who worked on Iran. That effectively remains the case.
    I would say that one of the positive things that the 
administration has done is try to build capabilities in this 
arena. There has been the establishment of an Office of Iranian 
Affairs run by competent professionals, Foreign Service 
officers. And there has been the establishment of an office out 
in Dubai, led by people who very much do understand Iran and 
have been working on this issue for quite a long time. That 
office, unfortunately, described by Under Secretary Burns at 
one time as a sort of Riga station, which evoked a lot of 
concern among Iranians, is very much intended to serve in some 
ways as a shadow embassy. It has political officers, economic 
officers, people who do public diplomacy. The officers 
stationed there try as much as possible to meet with Iranians.
    So we are operating at a tremendous disadvantage that is 
really borne of the lack of contacts and the lack of exposure 
to Iran. And frankly, the restrictions on Americans traveling 
to Iran, which are really not within the U.S. Government's 
purview. I think one of the unfortunate constraints is the 
restrictions on dialog that have expanded under this 
administration. But I think any administration for the 
foreseeable future is going to have a long difficulty building 
back from this deficit of understanding.
    Mr. Tierney. Thank you.
    I just want to ask, I was listening to a little bit of the 
back and forth here. Mr. Haas, you indicate that you are not 
for the military option on this, that is, you are not 
recommending people go in and bomb or have a military option. 
But it sounds like you are heavily into the sanctions without 
discussion mode. I guess if that is the case, you must be 
thinking that they are going to lead to some sort of regime 
change, and that is your ulterior motive.
    I juxtapose that against what I hear from others who don't 
discount the sanctions, or at least it seems to me that they 
don't discount the sanctions, they see them as an effective 
tool in our tool kit. But you say that they must be amongst 
other things that we are willing to negotiate about as we try 
to get some concessions out of the Iranians.
    So I just put that to the panel. You should answer first, 
sir, because I brought your name up first. But I would like to 
hear from the others as well. Because one of our witnesses last 
week talked about the importance of Iran to a host of our 
national security priorities, Afghanistan, Iraq, Pakistan, 
nuclear non-proliferation, right on down the list.
    Mr. Haas. Well, a few thoughts. First of all, it comes down 
to what you fear may happen down the road. So I start from the 
premise that what I fear most is this regime with nuclear 
weapons. So then dialing back from that, you say, what is it 
that we can try that perhaps will avert that situation. And I 
think that we have some tools that we have not used as 
forcefully as we could. They include carrots and sticks. But I 
don't think they are carrots to the Iranian regime. Because I 
don't think we can get a grand bargain with them. I think they 
are carrots to the Iranian people where we do not have the ties 
and we are not providing the support that we can.
    I would separate, as best we can, the regime from the 
Iranian people, and I see sanctions and this more comprehensive 
strategy as an alternative to military action and hopefully it 
will work if we do it aggressively.
    Mr. Tierney. Sir, am I correct in characterizing your 
position that you would use these tools to effect some sort of 
regime change by moving to the people and getting them to toss 
them off? That is your end goal of your policy?
    Mr. Haas. Yes, my end goal is to isolate----
    Mr. Tierney. You don't want to change behavior of the 
people that are in government now, you just want to change the 
government, and you want to use sanctions and whatever else you 
have in your box to do that?
    Mr. Haas. If the sanctions were to lead to a situation 
where the Iranian people forced behavior change, that would be 
great.
    Mr. Tierney. What if they led to a situation where the 
acting government now said, we will do a behavior change, we 
will make the grand bargain? Is that out of your--will you say 
no, because it is you that we don't like? We are not going to 
tolerate that, we just want to get rid of you?
    Mr. Haas. I am skeptical that will come to pass.
    Mr. Tierney. I know you are, but what if it happens?
    Mr. Haas. Then, fantastic, if it were to come to pass, 
obviously----
    Mr. Tierney. Then you are not that far away from where 
others are talking about. They are talking about doing the same 
thing, of using these tools to change the behavior.
    Mr. Haas. Mr. Chairman, I am not for regime change for the 
sake of regime change.
    Mr. Tierney. OK, that is not what I am trying to get at.
    Mr. Haas. That is right. I want an end goal. I don't want 
this regime to have nuclear weapons.
    Mr. Tierney. Right. That is what I was getting at. I have 
to tell you, I clearly took your position first to be you just 
wanted to get rid of them, because you had this belief that 
they would never change. I wanted to know whether or not in 
fact if they did change behavior, whether you and those that 
you associate with and work with or whatever are still saying, 
not good enough, we just want to get rid of you. I think you 
have clarified that, and I appreciate it.
    Mr. Haas. OK.
    Mr. Tierney. The other witnesses may want to make a comment 
on that, where we are going with this thing in terms of, I 
don't know that anybody is looking to say that regime change is 
the idea here, it is behavior change that we want, and there is 
a role for sanctions to be used as part of the tool kit on 
that? Am I right in characterizing others' positions? 
Ambassador.
    Ambassador Dobbins. We have a diplomatic mission in Havana. 
Cuba has a diplomatic mission in Washington. Why are we talking 
to Castro and not talking to the Iranian regime? Now, I take 
Mr. Shays' point that there is a certain loss of face involved, 
and conceding something now that we were unprepared to concede 
when they were behaving better. And the lesson I draw from that 
is, don't put yourself in that position to start with. Don't 
say, I am going to hold my breath until you agree with me, 
because it just becomes progressively more difficult to 
sustain. And it is not likely to make them agree.
    I think we need to use the full spectrum of tools available 
to us. But I don't think we can possibly succeed unless we 
understand them better, and we are not going to understand them 
better unless we talk to them.
    Mr. Tierney. Ms. Leverett.
    Ms. Mann Leverett. I would point out we have had nearly 30 
years of sanctions on the Iranian regime. It has not really 
worked. It has not been effective to change their behavior. I 
think part of the problem is, in my experience with dealing 
with them, both as part of the official dialog from 2001 to 
2003, and then after I left Government and the track two 
opportunities I have had to see senior Iranians, some senior 
Iranian officials. The problem with the continuing ratcheting-
up of the sanctions is that I think the Iranians also don't 
think that it will be effective, and it cuts to the core of 
what they want from us, which is essentially a version of a 
security guarantee that we are not going to use force to change 
their form of government or borders.
    So the continuing ratcheting-up of the sanctions I think 
undermines precisely the carrot that they want from us. I don't 
think that they are all that excited about WTO accession with a 
U.S. imprimatur on it, or the delivery of airlines parts or 
other kind of small carrots that this administration has been 
willing to put forward. That is not enough. What they are 
looking for from us--and only from us, this is not something 
they could get from the Europeans--they negotiated with the 
Europeans on the nuclear issue for 2 years, the Europeans 
cannot give the security guarantee that they are looking for. 
Only the United States could do that. And the ratcheting of 
sanctions, I am not against them per se, but in this case, it 
undermines the core need that the Iranians are looking to have 
from us.
    Mr. Tierney. Dr. Leverett, now that we have sanctions, are 
they an effective tool in moving forward to the grand bargain 
or not?
    Mr. Leverett. No. I don't think they are an effective tool, 
neither unilateral sanctions nor multilateral sanctions of the 
degree that we would be able to get agreement on is likely to 
have any strategic effect on this regime. The only thing that 
is going to work is to put an offer in front of the Iranians 
that will actually address core interests that matter to them. 
We have not done that, no administration has ever done that. 
This administration has refused to do that.
    To document that, I would suggest that you take the 
incentives package that this administration signed onto last 
year with the other permanent members of the Security Council 
in German, put that next to the incentives package that the 
Europeans on their own offered to the Iranians a year earlier. 
The language on economic and technological cooperation is very 
similar. The big differences are on regional security issues. 
The Europeans on their own were prepared to offer all kinds of 
implicit, explicit security guarantees for Iran. This 
administration insisted that those passages in the European 
draft be taken out before it would sign on.
    So Secretary Rice can say the policy is not regime change. 
But the actions of this administration indicate to the Iranians 
that the policy is in fact regime change, and the President 
himself has never been willing to make the statement that 
Secretary Rice has made about U.S. policy. The only way out of 
this is to make the Iranians an offer that serves their 
interests but also serves ours.
    Mr. Tierney. Thank you. Dr. Maloney, do you want the last 
word on that? Then I will go to Mr. Shays.
    Ms. Maloney. I would love it, although I think I have lost 
track of exactly what the question is. The effectiveness of 
sanctions, I think we have seen over the past 30 years that 
unilateral sanctions have only moderate effectiveness. What the 
administration has done in recent months through these 
financial measures can have some real bite, because it is 
effectively, forcibly multilateral. Because third country banks 
need to engage with the U.S. financial system, therefore they 
are effectively cooperating and participating in some of the 
restrictions on the u-turns that would enable Iran to do 
business in U.S. dollars. That is no longer, increasingly no 
longer the case and the Iranians are feeling the impact. I 
don't believe that those sorts of measures are going to create 
a reversal in the Iranian strategic calculus.
    So I think what you have to ask yourself is what will, so 
long as Iran is getting $70 billion in oil revenues, these 
sorts of measures can hurt but they can't force a full-fledged 
change. And we are unlikely to get multilateral consensus 
around the kind of robust measures that actually would force a 
change. I think this whole question of regime change, which is 
to some extent a separate question and gets to Mr. Shays' 
question about how can we negotiate with this particular set of 
characters is also an important one. I think the open question 
about where the administration stands in terms of regime 
change, the ambiguities that have been left are particularly 
important and need to be dealt with. The difficulty here is 
that there still are divisions and also that this is very much 
a complicated and difficult regime to deal with from their end.
    But ultimately, we put the handcuffs on ourselves in 
refusing to talk to them from 2003 and 2006. We continue to 
have handcuffs on our engagement with Iran because we are 
trying to find some way to make this overture with the nuclear 
program somehow viable. Ultimately, what we need to do at this 
stage is negotiations on all issues without preconditions. That 
is not an offer of a grand bargain and it is not necessarily a 
road to one. But it is a fresh start, a possibility of working 
on all the issues that we care about.
    Mr. Tierney. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    It may not appear this way, but I really enjoy this panel, 
all of you. I appreciate the incredible experience that each of 
you have had. I truly wrestle with all the things you are 
wrestling with, but without the knowledge that you may have.
    What I want to ask is this. I had the Israelis say to me, 
you don't understand the Middle East culture, you have a 
Western mind set. And for years, I wanted them to get out of 
Lebanon, and they said, you don't understand. We get out of 
Lebanon, and it will be a different reaction than you think. 
Well, they got out of Lebanon, and it was confirmation to 
Arafat that they could just wear Israel down. It had the exact 
opposite thing I thought the impact would be. And the Intifada 
happened, and they just went in that direction convinced, like 
in Lebanon, they could wear them down.
    So I want to ask, is there a Middle East mind set that is 
different from the Western mind set? And as we dialog about how 
we should just talk, I don't mean just talk, but have dialog, 
does it say something different to them than it says to us? And 
I would like to start with you, Dr. Maloney. You haven't been 
responding to most questions, but you are the most recent in 
all this stuff. Then I would like to go to you, Ambassador, and 
then ask the others.
    Ms. Maloney. I would not purport to suggest that there is a 
Middle Eastern mind set, or frankly, even an Iranian mind set, 
which of course would inevitably be, to some extent, distinct 
from an Arab or an Israeli mind set. I think what we know about 
this particular set of leaders in Iran today is that they fear 
compromise. They fear compromise, and they have said it, 
publicly, because they see any sort of concession or agreement 
to deal with the United States or make offers as only the 
starting point as some sort of future round of new pressures. 
Senior officials have used the phrase, today it is nuclear 
rights, tomorrow it will be human rights, the day after that it 
will be animal rights. Effectively, their fear is regime 
survival. They are a nasty group of people, there is no 
question about this.
    Mr. Shays. When I heard Ms. Mann Leverett basically saying 
sanctions didn't work, I would agree that unilateral sanctions 
hardly ever work. But we have never seen true multilateral 
sanctions. And I am struck by the fact that President Bush, 
Senator Hillary Clinton, President Nicholas Sarkozy, Chancellor 
Angela Merkel all said, totally unacceptable for Iran to have 
nuclear weapons. Well, I don't know what totally unacceptable 
means. It seems to me you have talk, you use sanctions or you 
use military. Those are the three options. I have seen nothing 
that tells me that talk, well, first off, I don't know to what 
extent we have had--I don't know what works. But it strikes me 
that talk would work the least. I thought Jimmy Carter did a 
lot of talking and then I saw Ronald Reagan say, you know, we 
are going to treat taking embassy employees as an act of war, 
and they were returned right away. It said to me that they 
think differently, or maybe the same in some ways.
    Ms. Maloney. I don't think this is a question of their 
thought process, though. The problem with multilateral 
sanctions is that we simply can't get agreement on them from 
our international partners.
    Mr. Shays. So if we can't get multilateral agreement, in 
spite of the fact that the Chancellor of Germany and the 
President of France say, it is unacceptable, well, how the heck 
do you prevent them from having it? And I just would throw out 
here, I am stunned by the fact that there was an event in Syria 
to which Israel appeared to have taken action, since I haven't 
been briefed on anything, don't know it, I can at least talk 
about it. I am struck by this fascination that in Syria, 
something happened. And it wasn't talk.
    Ambassador, let me have you respond to this.
    Ambassador Dobbins. In my diplomatic career, I have dealt 
with Soviet operatives, Somali warlords, Caribbean dictators, 
Balkan terrorists, Afghan insurgents and Iranian diplomats.
    Mr. Shays. Do you have a wife? [Laughter.]
    Ambassador Dobbins. Yes, and I see her occasionally.
    Of those, I actually found the Iranians the most 
reasonable.
    I guess what I would say is that any negotiation has to 
proceed from an understanding of the other side's perspectives, 
history, expectations. And they vary greatly. If you are going 
to deal with Iran, you will do better if you do have a deep 
understanding. Some of the points you raise are absolutely 
valid ones.
    On the other hand, I think all negotiations are similar in 
other respects, which is, they need to be based on a certain 
degree of mutual respect, a certain agreement about what it is 
you are negotiating about, and a shared sense that if you 
pursue this professionally and seriously, you have a prospect 
of reaching your common goal.
    Mr. Shays. Let me just go with you, Ms. Leverett, Dr. 
Leverett, and then we will end with you, Mr. Haas, then I will 
conclude.
    Ms. Mann Leverett. I can say in terms of my experience with 
the Iranians, negotiating with them in terms of their 
mentality, that I thought that when we asked them something, it 
appeared that they tried to deliver on everything that we 
asked. As I said in the record, their performance was not 
perfect, but they did deliver much of what we asked.
    I don't think that we have tried to have a serious 
discussion with them about the nuclear issue. I do believe, 
from what I have been able to ascertain and people I have 
talked to on the Iranian side, that the pursuit of a nuclear 
weapons option is based on regime survival. If it is based on 
regime survival, even if we were to militarily strike it, I 
think that would further add concern to them that their regime, 
the regime survival is at risk, and it would harden the 
mentality and force the program either to go underground or 
further underground, depending on where you come out in terms 
of where the program is.
    Mr. Shays. Just quickly, are sanctions and talk mutually 
exclusive?
    Ms. Mann Leverett. What I see as the problem, I wouldn't 
unilaterally disarm from the United States. I wouldn't say, we 
are going to lift the sanctions today without having any road 
map or grand bargain out there on the table.
    But ratcheting up the sanctions now, like to designate the 
Rev Guard, ratcheting up the sanction directly undermines the 
concern the regime has about its survivability. That is the 
problem with ratcheting up the unilateral sanctions by the 
United States at this point.
    Mr. Shays. Fair enough. Let me have Mr. Haas just respond 
quickly.
    Mr. Haas. Very quickly to your first question. I do think 
there is something important that you say about Lebanon. If you 
read the literature, if you listen to the speeches from that 
part of the world, you will see leaders in Iran as well as 
elsewhere talking about the Israelis leaving Lebanon, the 
Americans re-deploying after Beirut and the Americans in 
particular leaving Somalia after engagements in which Americans 
were bloodied. So there is something to what you are saying.
    Now, to go to the question about the tactics and the three 
things that you say, talk, sanctions or military action, I 
would just like to point out that we have been terribly 
disjointed in the messages that we have sent. We have said, as 
you say, that an Iran with nuclear weapons is not acceptable. 
Our leaders have said it, and at the same time, Secretary Rice, 
in assuring Western audiences, said Iran is not Iraq, meaning 
we are not going to use military force.
    My colleagues may disagree with me, but I think that when 
you send a signal to someone who you are trying to get to 
change in some way that the option that will really hurt them 
the most is not on the table any more, it seems to me that 
undercuts your negotiation. I think that we have not done a 
very good job of making clear that yes, we will talk, 
absolutely, we will be reasonable, hopefully we will come to an 
accommodation that suits both sides. But taking options off the 
table or being so disjointed about the messages we send I think 
makes it less effective, less likely that we are going to 
succeed with those other tools at our disposal.
    Mr. Yarmuth [presiding]. Thank you. I have two quick things 
before we adjourn.
    First--I hope this can be quick--is there any example we 
have in recent, well, not recently, any time during the last 
25, 28 years, in which the Iranians have conducted what we 
would normally regard as normal negotiations, successful 
negotiations with any other country?
    Ms. Maloney. The Iranians have maintained diplomatic 
relations with just about every other country in the world. So 
in terms of normal negotiations, they do that every day. I thin 
you can find lots of examples of Iran behaving pragmatically in 
its foreign policy. The primary one that academics like to cite 
is Saudi Arabia. The relationship between Iran and Saudi Arabia 
was really bitter and acrimonious, particularly after the first 
decade of the revolution. Khomeini, in his will, basically 
castigated King Fahd and the Saudis far more than he did 
America.
    And yet what has happened since 1989 has been a 
progressive, and even still to this day, devoted effort by the 
Iranians to try to build a rapprochement with the Saudis that 
has maintained even with some of the frictions that have been 
created by Ahmadinejad. So that is an example.
    Mr. Yarmuth. Thank you. So they do know how to do it. That 
is reassuring.
    Second, and this is going to be a subject, we are going to 
pursue this in an additional hearing, according to Chairman 
Tierney, but with regard to the censorship of your op-ed piece, 
you submitted the op-ed piece after you had left Government, is 
that correct?
    Ms. Mann Leverett. That is correct.
    Mr. Yarmuth. Under what basis did the White House censor 
your piece? What authority did they have to do that?
    Mr. Leverett. As we said, both the State Department and the 
CIA told us independently their in-house reviews said this 
draft contained no classified information, but that the White 
House was simply asserting that it should be classified.
    Mr. Yarmuth. I understand that, but what----
    Mr. Leverett. There was never any justification that was 
presented to us.
    Mr. Yarmuth. I understand, but you wrote the op-ed piece.
    Mr. Leverett. Yes.
    Mr. Yarmuth. And you were private citizens at that point.
    Mr. Leverett. Yes.
    Mr. Yarmuth. And you could have sent it to the New York 
Times anyway. Why would the White House, how would the White 
House be able to prevent you from doing that?
    Mr. Leverett. In my case, as a former CIA employee, I have 
a continuing obligation to submit drafts of material that I 
want to publish that relate to my Government service, to submit 
those to the agency to ensure, after an agency review, that 
draft is not disclosing classified information. I have cleared 
30 pieces through that process.
    Mr. Yarmuth. So in this case, the CIA cleared it, but then 
the White House said that they wouldn't clear it?
    Mr. Leverett. And then the White House told the CIA that 
they had to become involved in the process and that they would 
not clear it.
    Mr. Yarmuth. The chairman has asked me to mention that we 
would be examining that further.
    I also wanted to announce on Chairman Tierney's behalf that 
we will continue this series of hearings on Iran next 
Wednesday, November 14th, at 2 p.m. The hearing then will 
examine the regional and global consequences of U.S. military 
action in Iran.
    With that, I thank the panel very much for their testimony 
and without objection, the subcommittee stands adjourned.
    [Whereupon, at 5:20 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
